Appendix A

NOT RECOMMENDED FOR PUBLICATION
No. 19-1192
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
8

FILED

SAMANTHA DELANE RAJAPAKSE,

Mar 05, 2021
DEBORAH S. HUNT, Clerk

)
)
)

Plaintiff-Appellant,
v.
CREDIT ACCEPTANCE CORPORATION, et al.,

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)

Defendants-Appellees.

ORDER
Before: BOGGS, STRANCH, and BUSH, Circuit Judges.
Samantha Delane Rajapakse, proceeding pro se, appeals a district court judgment
dismissing her civil action alleging claims under the Fair Credit Reporting Act (FCRA),
15 U.S.C. §§ 1681 -168lx; the Truth in Lending Act (TILA), 15 U.S.C. §§ 1631-1651; the Fair
Credit Billing Act (FCBA), 15 U.S.C. §§ 1666-1666j;-the Fair Debt Collection Practices Act
(FDCPA), 15 U.S.C. §§ 1692-1692p; and the Magnuson-Moss Warranty Act (MMWA),
15 U.S.C. §§ 2301-2312, as well as a claim for fraud.
Rajapakse filed a complaint against Credit Acceptance Corporation (CAC) and numerous
individuals whom she alleged to be associated with CAC. She subsequently filed an amended
complaint, which identified additional defendants.

In her amended complaint, Rajapakse

asserted that she purchased a vehicle and a service warranty for her vehicle in January 2014 but
was unable to use the warranty for repairs to her vehicle because it was not honored at any
dealership or repair shop.

Rajapakse requested that CAC “remove the warranty off the

installment loan” associated with the vehicle purchase. She claimed that “CAC cancelled the
warranty part of the installment loan” in July 2016 but did not credit her loan for the correct
amount. She also claimed that CAC failed to report payments that she made on her installment

No. 19-1192
-2loan to the credit reporting agencies, which negatively affected her credit score, but that after she
disputed the information, “all three credit bureaus [] deleted CAC off all three of her reports in
August 2017.”

Rajapakse stopped making loan payments in 2017, and her vehicle was

repossessed in 2018. She sought monetary, declaratory, and injunctive relief.
A stipulated order dismissing defendants 1 Stop Auto Sales and Robert Williams was
entered per the parties’ agreement. Rajapakse filed a motion for summary judgment pursuant to
Federal Rule of Civil Procedure 56(a), and the defendants filed a motion to dismiss Rajapakse’s
amended complaint pursuant to Federal Rule of Civil Procedure 12(b)(6).

On the

recommendation of a magistrate judge arid over Rajapakse’s objections, the district court granted
the defendants’ motion, dismissed Rajapakse’s amended complaint, and denied as moot
Rajapakse’s motion for summary judgment. Rajapakse filed a timely appeal.
We review de novo a district court’s dismissal of a complaint under Rule 12(b)(6) for
failure to state a claim for relief. Lumbard v. City ofArm Arbor, 913 F.3d 585, 588-89 (6th Cir.),
cert, denied, 140 S. Ct. 267 (2019). A complaint must contain “enough facts to state a claim to
relief that is plausible on its face.” Bell Atl Corp. v. Twombly, 550 U.S. 544, 570 (2007). “A
claim has facial plausibility when the plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is liable for the misconduct alleged.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009).
The district court properly granted the defendants’ motion to dismiss Rajapakse’s
complaint for failure to state a claim for relief. First, Rajapakse’s amended complaint failed to
state a claim for relief under the FCRA. Rajapakse claimed that CAC did not report payments
that she made on her vehicle loan to the credit reporting agencies; reported the original loan
balance as $10,889.34 to the credit bureaus but $17,334.34 to the court; and provided inaccurate
information to the three credit reporting agencies after being notified of the inaccuracy through
her credit report dispute.
Section 1681s-2(a) of the FCRA does not provide consumers with a private cause of
action against furnishers of information based on the failure to correctly report information to the
credit reporting agencies. See Boggio v. USAA Fed. Sav. Bank, 696 F.3d 611, 615-16 (6th Cir.

No. 19-1192
-3-

2012); see also Sanders v. Mountain Am. Fed. Credit Union, 689 F.3d 1138, 1147 (10th Cir.
2012); Huertas v.. Galaxy Asset Mgmt., 641 F.3d 28, 34 (3d Cir. 2011) . (per curiam).
Section 168 ls-2(b) allows consumers to pursue a private cause of action against furnishers, “but
only for failing to comply with relevant requirements” after receiving notice .of a dispute.
Boggio, 696 F.3d at 616. When a furnisher of information receives notice from a credit reporting
agency that a consumer disputes a debt, the FCRA requires the furnisher to take a number of
actions to adequately investigate the dispute and to properly report the results of the
investigation. See 15 U.S.C. § 1681s-2(b)(l)(A)-(E); see Boggio, 696 F.3d at 616-18. The
consumer bears the burden to show that a furnisher of information was notified by a credit
reporting agency of the consumer’s disputed debt and that the furnisher failed to comply with its
statutory duties to investigate the dispute. Boggio, 696 F.3d at 618.
Rajapakse’s FCRA claim was subject to dismissal because she lacked a private cause of
action under § 1681s-2(a) to pursue her allegation that CAC did not accurately report payments
that she made on her vehicle loan to the credit reporting agencies. See Boggio, 696 F.3d at 615lb; Sanders, 689 F.3d at 1147; Huertas, 641 F.3d at 34. Rajapakse’s allegation that CAC
provided a higher original loan balance to the district court than it did to the credit reporting
agencies does not state a claim for relief under the FCRA. See § 1681s-s(a). Finally, Rajapakse
did not allege that CAC violated any of the statutory duties to investigate and properly report
information once notified of her dispute related to CAC. See § 1681s-2(b)(l)(A)-(E); Boggio,
696 F.3d at 616-18.
Second, Rajapakse’s amended, complaint failed to state a claim for relief under the TILA.
Rajapakse alleged that the installment loan associated with the January 2014 purchase of her
vehicle included an undisclosed “warranty.” She claimed that when she cancelled the warranty
in July 2016, CAC applied a “rebate” to her loan in an incorrect, prorated amount.
A TILA claim must be filed “within one year from the date of the occurrence of the
violation.” .15 U.S.C. § 1640(e); see Lester v. Wow Car Co., 675 F. App’x 588, 589-91 (6th Cir.
2017). “The limitations period for claims alleging violation of disclosure requirements begins

No. 19-1192
-4running when the agreement is entered and the lender does not make the required disclosures.”
Derbabian v. BankofAm., N.A., 587 F. App’x 949, 955 (6th Cir. 2014).
Rajapakse’s TILA claim was subject to dismissal because it was time-barred.
Rajapakse’s initial complaint was filed on September 8, 2017, more than one year after both the
January 2014 date on which she purchased the vehicle and began the installment loan and the
July 2016 date on which she received a credit to her loan after the warranty cancellation.
Furthermore, Rajapakse is not entitled to equitable tolling for the time during which her prior
civil action against CAC was pending, because that action did not allege a TILA claim.
Third, Rajapakse does not challenge the district court’s dismissal of her FCBA claim.
“Issues which were raised in the district court, yet not raised on appeal, are considered
abandoned and not reviewable on appeal” Robinson v. Jones, 142 F.3d 905, 906 (6th Cir.
1998). In other words, the “failure to raise an argument in [an] appellate brief [forfeits] the
argument on appeal.” Radvansky v. City of Olmsted Falls, 395 F.3d 291, 311 (6th Cir. 2005);
see also Geboyv. Brigano, 489 F.3d 752, 767 (6th Cir. 2007). Thus, Rajapakse has abandoned
appellate review of her FCBA claim.
In any event, Rajapakse’s amended complaint failed to state a claim for relief under the
FCBA. The FCBA applies to “open end consumer credit plan[s],” specifically credit card
accounts. 15 U.S.C. § 1666(d); see Grayv. Am. Express Co., 743 F.2d 10, 13 (D.C. Cir. 1984).
Rajapakse’s vehicle loan is a closed-end consumer credit transaction, to which the FCBA does
not apply. See § 1666(d).
Fourth, Rajapakse’s amended complaint failed to state a claim for relief under the
FDCPA. Rajapakse alleged that CAC used “deception” and sought “an unjustified amount”
when collecting the debt she owed, including the allegedly unlawful repossession of her vehicle.
The purpose of the FDCPA is to eliminate unfair “debt collection practices by debt
collectors . . ..” 15 U.S.C. § 1692(e). An FDCPA claim can be brought only against a debt
collector, who is anyone who “uses an instrumentality of interstate commerce or the mails in any
business the principal purpose of which is the collection of any debts, or who ‘regularly collects
or attempts to collect . . . debts owed or due . . . another.’” 15 U.S.C. § 1692(a)(6). Henson v.

No. 19-1192
-5Santander Consumer USA Inc., 137 S. Ct. 1718, 1721 (2017) (quoting 15 U.S.C. § 1692a(6)). In
contrast, a debt owner, who seeks to collect a debt for itself, is not a debt collector as defined by
the FDCPA. Id. at 1721-22. Importantly, the FDCPA “ties a defendant’s ‘debt collector status’
not to what the defendant specifically did in a given case, but. to what the defendant generally
does.” Bates v. Green Farms Condo. Ass’n, 958 F.3d 470, 480-81 (6th Cir. 2020). But it does
not impose liability on a debt collector attempting to collect a debt “which was not in default at
the time it was obtained by such person.”

15 U.S.C. § 1692a(6)(F)(iii); see also Downs v.

Clayton Homes, Inc., 88 F. App’x 851, 853 (6th Cir. 2004).
Rajapakse’s FDCPA claim was subject to dismissal because CAC is not a debt collector
for purposes of the FDCPA. She offers no allegations suggesting that CAC “regularly collects or
attempts to collect” debts owed or due to others; indeed, in this case, CAC was assigned
Rajapakse’s installment loan associated with the purchase of her vehicle on the date of
origination, such that it owned the debt that it sought to collect. Rajapakse does allege that CAC
sent her bills in the mail. But even drawing from that.allegation the generous inference that the
principal purpose of CAC’s business was the collection of debts, see Bates, 958 F.3d at 481,
Rajapakse’s loan was not in default at the time it was assigned to CAC.

Under these

circumstances, CAC cannot be liable under the FDCPA for the collection activity alleged here.
See Henson, 137 S. Ct. at 1721-22; Downs, 88 F. App’x at 853.
Fifth, Rajapakse’s amended complaint failed to state a claim for relief under the MMWA.
A claim brought under the MMWA requires a minimum amount in controversy of $50,000 to
invoke the subject-matter jurisdiction of the district court.. 15 U.S.C. § 2310(d)(3)(B); see
Golden v. Gorno Bros., 410 F.3d 879, 882 (6th Cir. 2005). “The finance charges of a contract
should not be added when determining if the amount in controversy has been satisfied.” Golden,
410 F.3d at 885. Rajapakse’s MMWA claim was subject to dismissal for lack of subject-matter
jurisdiction because there was no suggestion in Rajapakse’s complaint that her MMWA claim
could meet the minimum amount in controversy of $50,000.
Sixth, Rajapakse argues that CAC violated her Fourth and Fourteenth Amendment rights.
Although she alluded to those claims in her submissions below, the district court .did not address

i

No. 19-1192
-6them. Nevertheless, a plaintiff may only state a constitutional claim against a defendant acting
“under color of state law.” Rudd v. City of Norton Shores, 977 F.3d 503, 512 (6th Cir. 2020)
(quoting 42 U.S.C. § 1983). Rajapakse offers no facts to suggest CAC qualifies for liability. To
the extent she asserts it was the district court that violated her constitutional rights, such a claim
must fail because the district court is not a party here and is in any event protected by absolute
judicial immunity. See Mireles v. Waco, 502 U.S. 9, 9-10 (1991); Cooper v. Rapp, 702 F. App’x
328,333-34 (6th Cir. 2017).
Seventh, although the district court dismissed the fraud claim for failure to plead with
particularity under Rule 9(b), the district court in fact lacked subject-matter jurisdiction to
entertain the claim. A complaint must contain a “short and plain statement of the grounds for the
court’s jurisdiction.” Fed. R. Civ. P. 8(a)(1). Here, Rajapakse asserted only federal question
jurisdiction under 28 U.S.C. § 1331. But there is no federal law providing relief for common law
fraud; the claim would necessarily arise under state law. Because none of Rajapakse’s other,
federal question claims survived, the district court lacked supplemental jurisdiction over any
state law claim. 28 U.S.C. § 1367(a). And there was no diversity jurisdiction because, even
liberally construed, the complaint cannot be read to plead an amount in controversy greater than
$75,000. 28 U.S.C. § 1332(a). The entire value of the loan and interest ($17,334.34) combined
with the value of the Trailblazer (generously assumed to be equal to the value of the loan and
interest) is less than $35,000.
In her appellate brief, Rajapakse argues that the district court discredited and failed to
mention affidavits and expert testimony that she.submitted to support her claims. She also
argues that the documentary evidence that she submitted supported her summary-judgment
motion, which the district court denied as moot. However, it was not necessary for the district
court to consider the documentary evidence submitted by Rajapakse because the allegations in
her complaint failed to meet the statutory requirements to state claims for relief under any of the
theories alleged.

No. 19-1192
-7-

Accordingly, we AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

*

Deborah S. Hunt, Clerk

!

I

►

Appendix B

\

s.

Case: 19-1192

Document: 18-2

Filed: 08/28/2019

Page: 1

(2 of 6)

No. 19-1192
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

SAMANTHA DELANE RAJAPAKSE,

)
)
)
)
)
)

Plaintiff-Appellant,
v.
CREDIT ACCEPTANCE CORPORATION, et al.,
Defendants-Appellees.

FILED

Aug 28, 2019
DEBORAH S. HUNT, Clerk
ORDER

)
>
)
)
)

Samantha Delane Rajapakse, proceeding pro se, appeals a district court judgment
dismissing her civil action asserting claims under the Fair Credit Reporting Act (FCRA), 15 U.S.C.
§§ 1681-1681x; the Truth in Lending Act (TILA), 15U.S.C. §§ 1631-1651; the Fair Credit Billing
Act (FCBA), 15 U.S.C. §§ 1666-1666j; the Fair Debt Collection Practices Act (FDCPA), 15
U.S.C. §§ 1692-1692p; and the Magnuson-Moss Warranty Act (MMWA), 15 U.S.C. §§ 2301 2312. The district court certified that an appeal could not be taken in good faith and denied
Rajapakse permission to proceed in forma pauperis on appeal. See 28 U.S.C. § 1915(a)(3).
Rajapakse now requests permission from this court to proceed in forma pauperis on appeal. See
Fed. R. App. P. 24(a)(5). She has also filed motions for appointment of counsel; for change of
venue and to present to the house judiciary committee; for record on appeal, suspension of the
rules and [injunction] or stay of property pending appeal; to amend the record on appeal; a petition
for writ of mandamus; a supplement to petition for writ of mandamus, evidence on the record, and
motion to withdraw change of venue; and a request for immediate hearing for petition for writ of
mandamus.
Rajapakse filed a complaint against Credit Acceptance Corporation (CAC) and numerous
individuals whom she alleged to be associated with CAC. She subsequently filed an amended

i

Case: 19-1192

Document: 18-2

Filed: 08/28/2019

Page: 2

No. 19-1192
-2complaint, which identified additional defendants. In her amended complaint, Rajapakse asserted
that she purchased a vehicle and a service warranty for the vehicle in 2014 but was unable to use
the warranty for repairs to her vehicle because it was not honored at any dealership or repair shop
when she attempted to use it. Rajapakse requested CAC “to remove the warranty off the
installment loan” associated with the vehicle purchase. She claimed that “CAC cancelled the
warranty part of the installment loan” in 2016 but did not credit her loan account for the correct
amount. She also claimed that CAC failed to report payments that she made on her installment
loan to the credit reporting agencies, which negatively affected her credit score, but that after she
disputed the information, “all three credit bureaus . . . deleted CAC off all three of her reports in
August 2017.” Rajapakse’s vehicle was repossessed in 2018. She sought monetary and injunctive
relief.
Rajapakse filed a motion for summary judgment pursuant to Federal Rule of Civil
Procedure 56(a), and the defendants filed a motion to dismiss Rajapakse’s amended complaint
pursuant to Federal Rule of Civil Procedure 3 2(b)(6). A magistrate judge recommended granting
the defendants’ motion to dismiss and denying Rajapakse’s summary-judgment motion as moot.
First, the magistrate judge reasoned that Rajapakse’s MMWA claim was subject to
dismissal for lack of subject matter jurisdiction because it did not meet the minimum amount in
controversy of $50,000 for MMWA claims. See 15 U.S.C. § 2310(d)(3)(B); Golden v. Gorno
Bros., 410 F.3d 879, 885 (6th Cir. 2005).
Second, the magistrate judge reasoned that Rajapakse’s TILA claim was subject to
dismissal because it was time-barred. A TLLA claim must be filed “within one year from the date
of the occurrence of the violation.” 15 U.S.C. § 1640(e). Rajapakse’s was filed more than one
year from either the date of the vehicle loan or the date of the warranty credit.
Third, the magistrate judge reasoned that Rajapakse’s FCBA claim was subject to dismissal
because the FCBA applies to open-end rather than “closed-end credit transactions” like
Rajapakse’s “vehicle loan at issue in this case.” The FCBA applies to “open end consumer credit
#

(3 of 6)

Case: 19-1192

Document: 18-2

Filed: 08/28/2019

Page: 3

No. 19-1192
-3plan[s],” specifically credit card accounts. 15 U.S.C. § 1666(d); see Gray v. Am. Express Co., 743
F.2dl0, 13(D.C.Cir. 1984).
Fourth, the magistrate judge reasoned that Rajapakse’s FDCPA claim was subject to
dismissal because the FDCPA “applies only to debt collectors, not creditors attempting to collect
their own debt.” The magistrate judge noted that CAC was assigned Rajapakse’s vehicle loan on
the date of origination and cannot be considered a debt collector under the FDCPA because the
loan was not in default at the time of assignment. An FDCPA claim can be brought only against
a debt collector, which is “anyone who ‘regularly collects or attempts to collect... debts owed or
due ... another.’” Henson v. Santander Consumer USA Inc., 137 S. Ct. 1718,1721 (2017) (quoting
15 U.S.C. § 1692a(6)). The debt collector definition excludes those who attempt to collect a debt
that “was not in default at the time it was obtained.” 15 U.S.C. § 1692a(6)(F)(iii); see Downs v.
Clayton Homes, Inc., 88 F. App’x 851, 853 (6th Cir. 2004).
Fifth, the magistrate judge reasoned that Rajapakse’s FCRA claim was subject to dismissal
because (1) “there is no private cause of action for consumers against furnishers of information for
failure to comply with [15 U.S.C.] § 1681 s-2(a), which addresses providing inaccurate information
to the credit reporting agencies in the first instance”; (2) Rajapakse’s claim that the defendants
provided inaccurate information to the court but not the credit reporting agencies did not state a
claim under the FCRA; and (3) although Rajapakse has a private cause of action under 15 U.S.C.
§ 1681 s-2(b), she failed to allege that the defendants did not investigate her disputed debt with
CAC “or comply with any other statutory duty” after being notified of the dispute by a credit
reporting agency. The magistrate judge also pointed out that Rajapakse asserted “that the credit
reporting agencies removed the debt from her credit reports after she disputed the debt,” essentially
contradicting “her claim that defendants violated the FCRA.” The FCRA does not provide
consumers with a private cause of action against furnishers of information based on the failure to
correctly report information under § 1681s-2(a). See, e.g., Sanders v. Mountain Am. Fed. Credit
Union, 689 F.3d 1138, 1147 (10th Cir. 2012); Huertas v. Galaxy Asset Mgmt., 641 F.3d 28, 34 (3d
Cir. 2011) (per curiam). But § 1681s-2(b) does allow a private cause of action for consumers

(4 of 6)

Case: 19-1192

Document: 18-2

Filed: 08/28/2019

Page: 4

No. 19-1192
-4against furnishers of information. Boggio v. USAA Fed. Sav. Bank, 696 F.3d 611, 616 (6th Cir.
2012). When a furnisher of information receives notice from a credit reporting agency that a
consumer disputes a debt, the FCRA requires the furnisher to take a number of actions in order to
investigate adequately the dispute and to report the results of the investigation. See 15 U.S.C.
§ 1681s-2(b)(l)(A)-(E). The consumer bears the burden to show that a furnisher of information
was notified by a credit reporting agency of the consumer’s disputed debt and that the furnisher
failed to comply with its statutory duty to investigate the dispute. Boggio, 696 F.3d at 618.
Rajapakse did not make such allegations.
Sixth, the magistrate judge reasoned that Rajapakse’s fraud claim was subject to dismissal
because it was not pleaded with the requisite particularity. A party alleging fraud “must state with
particularity the circumstances constituting fraud or mistake.” Fed. R. Civ. P. 9(b). “Rule 9(b)
‘requires a plaintiff (1) to specify the allegedly fraudulent statements; (2) to identify the speaker;
(3) to plead when and where the statements were made; and (4) to explain what made the
statements fraudulent.’” Ross v. PennyMac Loan Servs., 761 F. App’x 491, 493 (6th Cir. 2019)
(quoting Republic Bank & Tr. Co. v. Bear Stearns & Co., 683 F.3d 239, 247 (6th Cir. 2012)).
Over Rajapakse’s objections, the district court adopted the magistrate judge’s report and
recommendation, granted the defendants’ motion to dismiss, dismissed Rajapakse’s amended
complaint, and denied as moot Rajapakse’s motion for summary judgment. The district court
concluded that Rajapakse’s objections failed to address the magistrate judge’s “basis for dismissal”
of her claims, failed to demonstrate “any error in the Magistrate Judge’s analysis” of her claims,
or failed to “even mention the Magistrate Judge’s analysis” of her claims. To the extent that
Rajapakse objected to the magistrate judge’s recommended dismissal of each of her claims, the
district court overruled her objections. Rajapakse filed a timely appeal and the current motions to
proceed in forma pauperis and miscellaneous motions, petition, and request.
This court may grant a motion to proceed in forma pauperis if it determines that an appeal
would be taken in good faith and the movant is indigent. See Owens v. Keeling, 461 F.3d 763, 776
(6th Cir. 2006). A frivolous appeal, one that “lacks an arguable basis either in law or in fact,”

(5 of 6)

Case: 19-1192

Document: 18-2

Filed: 08/28/2019

Page: 5

(6 of 6)

No. 19-1192
-5would not be taken-in good faith. Neitzke v. Williams, 490 U.S. 319, 325 (1989); see also
Coppedge v. United States, 369 U.S. 438, 445 (1962).
For the reasons discussed by the magistrate judge and adopted by the district court, an
appeal in this case would be frivolous. See Neitzke, 490 U.S. at 325. Accordingly, the motions to
proceed in forma pauperis and all other pending motions, petition, and request are DENIED.
Unless Rajapakse pays the $505 filing fee to the district court within thirty days of the entry of this
order, this appeal will be dismissed for want of prosecution.

ENTERED BY ORDER OF THE COURT
i

Deborah S. Hunt, Clerk

Case 4:17-cvQ^S!0l-8^ffILQ2DDD©{MHTiaDt:^@D, Ffi&3JDQB229/2!0afcd 00^22 Page 2 of 2

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

No: 194192

Filed: March 29,2021
SAMANTHA DELANE RAJAPAKSE
Plaintiff - Appellant
v.

CREDIT ACCEPTANCE CORPORATION; BRETT A. ROBERTS; STEVEN M. JONES;
KENNETH S. BOOTH; DOUGLAS W. BUSK; CHARLES A. PIERCE; ARTHUR SMITH;
JOHN S. SOAVE; DANIEL A. ULATOWSKI; BOARD OF CREDIT ACCEPTANCE
CORPORATION; GLENDA FLANAGAN; THOMAS N. TRYFORUS; SCOTT J.
VASSAUZZO; SANDY POLLACK
Defendants - Appellees

MANDATE
Pursuant to the court's disposition that was filed 03/05/2021 the mandate for this case hereby
issues today.

COSTS: None

Case: 19-1192

Document: 22-2

Filed: 10/17/2019

Page: 1

Case No. 19-1192
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
SAMANTHA DELANE RAJAPAKSE
Plaintiff - Appellant
v.
CREDIT ACCEPTANCE CORPORATION; BRETT A. ROBERTS; STEVEN M. JONES;
KENNETH S. BOOTH; DOUGLAS W. BUSK; CHARLES A. PIERCE; ARTHUR SMITH;
JOHN S. SOAVE; DANIEL A. ULATOWSKI; BOARD OF CREDIT ACCEPTANCE
CORPORATION; GLENDA FLANAGAN; THOMAS N. TRYFORUS; SCOTT J.
VASSAUZZO; SANDY POLLACK
Defendants - Appellees

Appellant having previously been advised that failure to satisfy certain specified
obligations would result in dismissal of the case for want of prosecution and it appearing that the
appellant has failed to satisfy the following obligation(s):
The proper fee was not paid by October 16, 2019.
It is therefore ORDERED that this cause be, and it hereby is, dismissed for want of
prosecution.
ENTERED PURSUANT TO RULE 45(a),
RULES OF THE SIXTH CIRCUIT
Deborah S. Hunt, Clerk

Issued: October 17, 2019

1
Case: 19-1192

Document: 43-1

Filed: 03/24/2021

Page: 1

No.19-1192

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Mar 24, 2021
DEBORAH S. HUNT, Clerk

SAMANTHA DELANE RAJAPAKSE,
Plaintiff-Appellant,
v.
CREDIT ACCEPTANCE CORPORATION, ET AL.,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: BOGGS, STRANCH, and BUSH, Circuit Judges.
Upon consideration of the appellant’s untimely petition for rehearing en banc,
It is ORDERED that the petition not be accepted for filing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

/
L

(

\

{

Appendix A

[

c

r

;

I
j

;
\

(

\

1

Appendix C

I

\
i

i

'i

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1205 Filed 02/27/19 Page 1 of 10

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
SAMANTHA RAJAPAKSE,
Case No. 17-cv-12970
Hon. Matthew F. Leitman

Plaintiff,
v.

CREDIT ACCEPTANCE CORP., et al,
Defendant.

ORDER (11 OVERRULING PLAINTIFF’S OBJECTIONS (ECF #140)
TO THE MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION
(ECF #1361. (21 ADOPTING THE MAGISTRATE JUDGE’S
RECOMMENDED DISPOSITION (ECF #136). (31 GRANTING
DEFENDANTS’ MOTION TO DISMISS (ECF #123). (4) DISMISSING
PLAINTIFF’S FIRST AMENDED COMPLAINT (ECF #41). (51 DENYING
PLAINTIFF’S REMAINING MOTIONS AS MOOT (ECF ##119,127,129,
134.1391. AND (61 CERTIFYING THAT AN APPEAL COULD NOT BE
TAKEN IN GOOD FAITH
Plaintiff Samantha Rajapakse, proceeding pro se and in forma pauperis, brings
this action against Credit Acceptance Corporation (“CAC”) and several individual
defendants who are allegedly associated with CAC. Rajapakse’s pleadings and
claims are not easy to understand. Her claims appear to arise out of a vehicle retail
installment contract (“RIC”) that Rajapakse entered into when she purchased a 2007
Chevrolet Trailblazer. The RIC listed CAC as an assignee, and it appears that the
RIC was assigned to CAC when Rajapakse purchased her vehicle. Rajapakse seems
to allege that her vehicle came with a service warranty; that service facilities refused

1

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1206 Filed 02/27/19 Page 2 of 10

to honor the warranty; and that CAC still required her to pay for the warranty and to
pay the installment payments under the RIC even though the warranty was not being
honored. Rajapakse’s First Amended Complaint (ECF #41) appears to assert claims
against the Defendants under a number of federal statutes, including the Fair Credit
Reporting Act, the Truth in Lending Act, the Fair Credit Billing Act, the Fair Debt
Collection Practices Act, and the Magnuson-Moss Warranty Act
The assigned Magistrate Judge has issued a Report and Recommendation in
which she recommends that the Court grant the motion to dismiss filed by
Defendants, dismiss all of Rajapakse’s claims, and deny as moot Rajapakse’s motion
for summary judgment and her other remaining motions (the “R & R”). (See ECF
#136.) Rajapakse has filed objections to the R & R (the “Objections”). (See ECF
#140.)

The Objections contain baseless attacks on the ethics and impartiality of the
assigned Magistrate Judge.

Rajapakse leaps to the erroneous conclusion that

because the Magistrate Judge has made rulings adverse to her, the Magistrate Judge
must be biased and dishonest. She has made similar meritless and unsupported
attacks on the Magistrate Judge in earlier filings. (See, e.g., Motion for Recusal, ECF
#51 at Pg. ID 443-46; Motion for Recusal, ECF #101 at Pg. ID 766-70; Motion for
Discovery, ECF #139 at Pg. ID 1148-53.) In the Objections, Rajapakse even

2

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1207 Filed 02/27/19 Page 3 of 10

suggests that the Magistrate Judge committed “perjury” in one of the Magistrate
Judge’s rulings. (Objections, ECF #140 at Pg. ID 1173-74.)
This is not the first time that Rajapakse has hurled groundless allegations of
misconduct at a federal judicial officer who has ruled against her. As United States
District Judge John T. Fowlkes, Jr., said when he dismissed another action filed by
Rajapakse:
Plaintiffs filings primarily attack the integrity of this Court without
going into the substance of the case at hand. There is no basis for
Plaintiff to claim that this Court has at any time disadvantaged her
based on her race, socioeconomic status, or pro se status. Nor has this
Court ever lacked impartiality in this matter. The dismissal of this claim
is completely a function of poor pleading and lack of merit.
Rajapakse v. Wells Fargo Home Mortgage, 2015 WU 4164172 at * 4, n.l (W.D.
Tenn., July 9, 2015). Judge Fowlkes deemed Rajapakse’s filings so abusive that he
enjoined her from filing future pro se actions in the Western District of Tennessee
without first obtaining leave of court. See Rajapakse v.: Wells Fargo Home
Mortgage, W.D. Tenn., Case No. 15-02216 at Dkt. No. 52. In other federal civil
actions that Rajapakse has filed pro se, she has attacked the impartiality of the
presiding federal judicial officers in motions for recusal that did not warrant relief.

See, e.g., Reed-Rajapakse v. Memphis Light Gas and Water, W.D. Tenn. Case No.
12-02807 at Dkt. No. 59 (motion for recusal) and Dkt. No. 61 (order denying motion
for recusal); Rajapakse v. Baker Donelson Bearman Caldwell & Berkowitz, P.C., et
al., W.D. Tenn. Case No. 13-02328 at Dkt. No. 11 (motion for recusal) and Dkt.
No. 15 (order denying motion for recusal).
3

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1208 Filed 02/27/19 Page 4 of 10

Like her filings in the civil action before Judge Fowlkes, Rajapakse’s
Objections - to the extent that they move beyond the personal attacks on the
Magistrate Judge in the instant case - are largely “incomprehensible.” Rajapakse v.
Wells Fargo Home Mortgage, 2015 WL 4164172 at *4, n.l. Moreover, Rajapakse
does not address the bases on which the Magistrate Judge recommended dismissal.
Rajapakse has not even come close to showing that the Magistrate Judge erred in
any way.

Accordingly, the Court OVERRULES the Objections (ECF #140),

ADOPTS the Magistrate Judge’s recommended disposition (ECF #136 at Pg. Id
1126), GRANTS Defendants’ motion to dismiss (ECF #123), DISMISSES
Rajapakse’s First Amended Complaint (ECF #41) with prejudice, DENIES AS
MOOT all of Rajapakse’s remaining motions (ECF ##119, 127, 129, 134, 139), and
CERTIFIES that AN APPEAL CANNOT BE TAKEN IN GOOD FAITH.
I
Where a party objects to a portion of a Magistrate Judge’s Report and
Recommendation, the Court reviews that portion de novo. See Fed. R. Civ. P.
72(b)(3); Lyons v. Comm ’rofSoc. Sec., 351 F. Supp. 2d 659, 661 (E.D. Mich. 2004).
The Court has no duty to conduct an independent review of the portions of a Report
and Recommendation to which a party has not objected. See Thomas v. Arn, 474
U.S. 140, 149 (1985).

4

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1209 Filed 02/27/19 Page 5 of 10

II
Before turning to the R & R and the Objections, the Court wishes to address
Rajapakse’s repeated claim that the Magistrate Judge failed to account for her status
as a pro se litigant and held her to unfair standards. These claims have no merit.
The Magistrate Judge continually recognized the appropriate legal standard to be
applied to Rajapakse given her pro se status.2 Furthermore, on several occasions the
Magistrate Judge advised Rajapakse that the Court’s pro se clinic was available to
assist. (See, e.g., Order, ECF #118 at Pg. ID 906.) And the Magistrate Judge even
attempted to appoint counsel for Rajapakse (see, e.g., Notice Regarding
Appointment of Counsel, ECF #87; Order Conditionally Appointing Counsel, ECF
#99) - something that is rarely done in civil cases - but Rajapakse declined the offer.
(See Motion to Withdrawal Counsel, ECF #113.) Simply put, Rajapakse was held
to the proper standard and offered more help than most pro se litigants. She has no
basis on which to complain about her treatment.

2 See, e.g., the R & R, ECF #136 at Pg. ID 1112 (stating that “in view of Rajapakse’s
status as a pro se litigant, the Court permits some leeway in evaluating her filings”
and applies a “less stringent standard”); Report and Recommendation, ECF #57 at
Pg. ID 497 (making same point); Order, ECF #69 at Pg. ID 573 (making same point);
Order, ECF #118 at Pg. ID 907 (making same point).
5

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1210 Filed 02/27/19 Page 6 of 10

III
A
In the R & R, the Magistrate Judge first recommended that the Court dismiss
Rajapakse’s claim under the Magnuson-Moss Warranty Act (MMWA) for lack of
subject matter jurisdiction. (R & R, ECF #136 at Pg. ID 1114-15.) Rajapakse does
not address this basis for dismissal in the Objections. Instead, she attempts to make
other points about her claim under the MMWA. But since Rajapakse has not shown
any error in the Magistrate Judge’s conclusion that the Court lacks subject matter
jurisdiction over the MMWA claim, Rajapakse’s other observations about that claim
are beside the point. Accordingly, to the extent that the Objections contain any
objections to the Magistrate Judge’s recommendation that the Court dismiss the
MMWA claim, those objections are OVERRULED.
B
The Magistrate Judge recommended that the Court dismiss Rajapakse’s Truth
in Lending Act (TILA) claim as time-barred under the applicable statute of
limitations. (R & R, ECF #136 at Pg. ID 1115-16.) In the Objections, Rajapakse
does not attempt to show any error in the Magistrate Judge’s analysis on this point.

6

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1211 Filed 02/27/19 Page 7 of 10

Instead, she attempts to make other observations about her TILA claim.3 But since
Rajapakse has not shown any error in the Magistrate Judge’s conclusion that the
TILA claim is time-barred, Rajapakse’s other observations about that claim are
beside the point.

Accordingly, to the extent that the Objections contain any

objections to the Magistrate Judge’s recommendation that the Court dismiss the
TILA claim, those objections are OVERRULED.
C
The Magistrate Judge recommended that the Court dismiss Rajapakse’s claim
under the Fair Credit Billing Act (FCBA) on the ground that the FCBA does not
apply to Rajapakse’s car loan. (Id. at Pg. ID 1116-17.) It appears that Rajapakse
may have attempted to address this portion of the R & R in her Objections.
(Objections, ECF #140 at Pg. ID 1184-85.) But Rajapakse’s discussion of the FCBA
is incomprehensible and is not supported by a citation to any case law. (See id.)
Accordingly, to the extent that the Objections contain any objections to the
Magistrate Judge’s recommendation that the Court dismiss the FCBA claim, those
objections are OVERRULED.

3 Rajapakse notes - without any argument or analysis - that she previously filed
another action in this Court against CAC. (Objections, ECF #140 at Pg. ID 1183.)
The Magistrate Judge acknowledged the filing of the prior action and explained that
the prior action did not toll the limitations on Rajapakse’s TILA claim because that
action did not contain a TILA claim. (R & R, ECF #136 at Pg. ID 1116 n.3.)
Rajapakse has not attempted to show that the Magistrate Judge erred in reaching that
conclusion.
7

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1212 Filed 02/27/19 Page 8 of 10

D
The Magistrate Judge recommended that the Court dismiss Rajapakse’s Fair
Debt Collection Practices Act (FDCPA) claim on the ground that CAC “is not a debt
collector as defined by the FDCPA.” (R & R, ECF #136 at Pg. ID 1118.)
Rajapakse’s Objections do not respond to, or even mention, the Magistrate Judge’s
analysis of her FDCPA claim. Accordingly, to the extent that the Objections contain
any objections to the Magistrate Judge’s recommendation that the Court dismiss the
FDCPA claim, those objections are OVERRULED.
E
The Magistrate Judge recommended that the Court dismiss Rajapakse’s
claims under the Fair Credit Reporting Act (FCRA) on the grounds that (1) there
was no private right of action for a violation of at least one of the provisions of the
Act under which Rajapakse brought her claim, (2) the provisions of the Act cited by
Rajapakse did not apply to her allegations that CAC provided inaccurate information
to the Court, and (3) Rajapakse did not plausibly allege CAC violated the pertinent
sections of the Act when it provided purportedly inaccurate information to the credit
reporting agencies. (Objections, ECF #140 at Pg. ID 1118-24.) In the Objections,
Rajapakse does not specifically address the Magistrate Judge’s analysis of her FCRA
claims. Instead, she attempts to make other observations about her claims under the
Act. But her points concerning her claims do not show how the claims are viable

8

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1213 Filed 02/27/19 Page 9 of 10

notwithstanding the flaws highlighted by the Magistrate Judge. Accordingly, to the
extent that the Objections contain any objections to the Magistrate Judge’s
recommendation that the Court dismiss the FCRA claims, those objections are
OVERRULED.
F
Finally, the Magistrate Judge recommended that the Court dismiss
Rajapakse’s fraud claim “because she has not pleaded it with any particularity as
required by Federal Rule of Civil Procedure 9(b).” (R & R, ECF #136 at Pg. ID
1124.) Rajapakse’s Objections do not counter or even mention the Magistrate
Judge’s analysis of her fraud claim. Accordingly, to the extent that the Objections
contain any objections to the Magistrate Judge’s recommendation that the Court
dismiss the fraud claim, those objections are OVERRULED.
IV
For the reasons stated above, this Court OVERRULES Rajapakse’s
Objections (ECF #140), ADOPTS the Magistrate Judge’s recommended disposition
(ECF #136 at Pg. ID 1126), GRANTS Defendants’ motion to dismiss (ECF #123),
and DISMISSES Rajapakse’s First Amended Complaint (ECF #41) with prejudice.
Having dismissed the First Amended Complaint, the Court DENIES AS MOOT all
of Rajapakse’s remaining motions (ECF ##119, 127, 129, 134,139).

9

Case 4:17-cv-12970-MFL-SDD ECF No. 143, PagelD.1214 Filed 02/27/19 Page 10 of 10

y

Finally, the Court CERTIFIES that an appeal of this order cannot be taken in
good faith. See 28 U.S.C. § 1915(a)(3); Fed. R. App. P. 24(a)(3)(A). Rajapakse has
not even attempted to rebut the Magistrate Judge’s determination that all of her
claims fail as a matter of law. Instead, she has devoted much of her efforts in this
case to lobbing baseless attacks on the ethics and impartiality of the Magistrate Judge
attacks much like those she has made against several other federal judicial officers.
This action should end now.
IT IS SO ORDERED.

Dated: February 27, 2019

s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE

I hereby certify that a copy of the foregoing document was served upon the
parties and/or counsel of record on February 27, 2019, by electronic means and/or
ordinary mail.
s/Hollv A. Monda
Case Manager
(810)341-9764

10

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1106

Page 1 of 22

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
SAMANTHA RAJAPAKSE,

Case No. 17-12970
Matthew F. Leitman
United States District Judge

Plaintiff
v.

CREDIT ACCEPTANCE CORP, et al,

Stephanie Dawkins Davis
United States Magistrate Judge

Defendant(s).

REPORT AND RECOMMENDATION
DEFENDANTS’ MOTION TO DISMISS (Dkt. 123) and PLAINTIFF’S
MOTIONS FOR SUMMARY JUDGMENT, TO EXPEDITE, TO COMPEL,
and TO AMEND SUMMARY JUDGMENT (Dkt 119,127,129,134)
I.

PROCEDURAL HISTORY
Plaintiff, Samantha Rajapakse, filed this complaint against Credit

Acceptance Corporation (CAC) and a number of individual defendants on
September 8, 2017 relating to a car loan. (Dkt. 1). Rajapakse filed an amended
complaint on March 5, 2018. (Dkt. 40). The amended complaint alleges claims
under the Fair Credit Reporting Act (FCRA), the Truth in Lending Act (TILA), the
Fair Credit Billing Act (which is an amendment to TILA), the Fair Debt Collection
Practices Act (FDCPA), and the Magnuson-Moss Warranty Act (MMWA), along
with a common-law fraud claim. (Dkt. 40, Amended Complaint). District Judge
Matthew F. Leitman referred this matter to the undersigned for all pretrial

1

1

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1107

Page 2 of 22

proceedings. (Dkt. 8). On October 25, 2018, defendants filed a motion to dismiss
the amended complaint, which is fully briefed. (Dkt. 123-125). Additionally,
Rajapakse previously filed a motion for summary judgment (Dkt. 119), and
subsequently filed a motion to expedite the return of her vehicle (Dkt. 127), a
motion to compel the return of her vehicle (Dkt. 129), and a motion to amend her
motion for summary judgment. (Dkt. 134).1 Because they were recently filed, no
responses to these motions have yet been filed.
For the reasons set forth below, the undersigned RECOMMENDS that
defendants’ motion to dismiss be GRANTED, and that Rajapakse’s pending
motions be TERMINATED as moot.
II.

FACTUAL BACKGROUND
On January 7, 2014, Rajapakse entered into a Retail Installment Contract

(RIC) with 1 Stop Auto Sales (the Dealership) for the purchase of a 2007
Chevrolet Trailblazer, which included a service warranty. (Dkt. 32, Ex. 1-A, Pg ID
229-233). The RIC provided that Rajapakse was to make 48 monthly installment
payments of $361.13 each. Id. The RIC explicitly designated CAC as “Assignee”
on the contract. Id. Rajapakse says that both the Dealership and CAC told her that
she could use the service warranty at any dealership or repair shop. Id. However,

1 Notably, Rajapakse’s previous motions for injunctive relief, some of which sought the
return of her vehicle, were all rejected by the Court. (Dkt. 57, 65).
2

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1108

Page 3 of 22

she alleges that she repeatedly tried to use the service warranty without success.
(Dkt. 40, p. 3). Rajapakse says she told CAC that the warranty was not honored at
multiple locations, but CAC refused to remove the warranty from the installment
loan. She also sought assistance from the Better Business Bureau, before finally,
in July 2016, CAC cancelled the warranty and stated that it would adjust the loan
accordingly. (Dkt. 40, p. 4). Rajapakse states that she continued to pay the loan
until January 2017. Id. In the meantime, according to the amended complaint,
CAC never sent Rajapakse any other statements relating to her loan. Id. At some
point however, Rajapakse reviewed her credit report and noticed that it showed the
original balance on her RIC was $10,889.24 with a past due amount reported by
CAC of $5,624.24. Id. Rajapakse maintains that payments from February 2014 to
August 2014 were not reported on her credit report, an omission that caused her
credit report (presumably referring to the rating) to be low. Id. The amended
complaint also details Rajapakse’s claim that her vehicle was wrongfully
repossessed on February 4, 2018. (Dkt. 40, p. 4).
Rajapakse asserts that CAC’s actions in this matter violate the TILA. (Dkt.
40, p. 5). She alleges that CAC provides dealers with an incentive to sell
warranties on vehicles that have been previously damaged, but the warranties are
not honored and later cannot be located. Id. Further, Rajapakse complains that
CAC continued to demand payment for the warranty, while at the same time

3

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1109

Page 4 of 22

disclaiming any responsibility for performing on the warranty. Rajapakse contends
that CAC also violated TILA and the MMWA in applying the pro-rated rebate
amount of $157.36 because their calculation is wrong. Id. She contends that
CAC’s actions constitute common law fraud. Id.2
Rajapakse previously filed a similar lawsuit against CAC in 2016 arising out
of the same RIC, which was dismissed without prejudice based on the parties’
arbitration agreement. (See Case No. 16-13144, Dkts. 26, 27). As explained in the
Report and Recommendation issued by the undersigned in the 2016 case, the RIC
contains an agreement to arbitrate, which the undersigned concluded encompassed
all claims asserted by Rajapakse in that lawsuit. (Case No. 16-13144, Dkt. 24).
The Report and Recommendation was adopted by the District Court and
Rajapakse’s 2016 complaint was dismissed in favor of the arbitration agreement.
(Case No. 16-13144, Dkts. 26, 27). Rajapakse’s motion for reconsideration of the
dismissal was denied. (Dkt. 31).
III.

ANALYSIS AND CONCLUSION
A.

Standard of Review

To survive a motion to dismiss under Rule 12(b)(6), a plaintiff must first
comply with Rule 8(a)(2), which requires “‘a short and plain statement of the claim

2 While Rajapakse’s amended complaint mentions the Fair Debt Collection Practices Act
at the very beginning (Dkt. 40, p. 2), this statute is not discussed anywhere in the body of the
amended complaint. Thus, it is not clear whether Rajapakse asserts a claim under this statute.
4

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1110

Page 5 of 22

showing that the pleader is entitled to relief,’ in order to ‘give the defendant fair
notice of what the ... claim is and the grounds upon which it rests.’” Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v. Gibson, 355 U.S.
41, 47 (1957)). A plaintiff is also obliged “to provide the grounds of his [or her]
entitlement to relief,” which “requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of action will not do.” Ass ’n of
Cleveland Fire Fighters v. City of Cleveland, 502 F.3d 545, 548 (6th Cir. 2007)
(quoting Twombly, 550 U.S. at 555 (citations and quotation marks omitted)).
The Supreme Court raised the bar for pleading requirements beyond the old
“no-set-of-facts” standard of Conley v. Gibson, 355 U.S. 41, 78 (1957), that had
prevailed for the last few decades. Courie v. Alcoa Wheel & Forged Products, 577
F.3d 625, 2009 WL 2497928, *2 (6th Cir. 2009) (citing Ashcroft v. Iqbal, 556 U.S.
662 (2009)); see also Twombly, 550 U.S. at 555. In Iqbal, the Supreme Court
explained that a civil complaint only survives a motion to dismiss if it “containfs]
sufficient factual matter, accepted as true, to state a claim to relief that is plausible
on its face.” Iqbal, 556 U.S. at 677. The Sixth Circuit observed that this new
standard is designed to screen out cases that, while not utterly impossible, are
“implausible.” Courie, at *2. “A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at 678. And

5

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.llll

Page 6 of 22

although the Court must accept all well-pleaded factual allegations in the
complaint as true, it need not “‘accept as true a legal conclusion couched as a
factual allegation.’” Twombly, 550 U.S. at 555 (quotingPapasan v. Allain, 478
U.S. 265, 286 (1986)); see also Iqbal, 556 U.S. at 678.
In ruling on the City’s motion, the Court may consider the pleadings of the
parties, including copies of any written instrument(s) attached to a pleading as their
attachment thereto renders them a part of the pleading under Rule 10(c). See also
Commercial Money Center, Inc. V. Illinois Union Ins. Co., 508 F.3d 326, 335-336
(6th Cir. 2007) (Motion for judgment on the pleadings was not converted to motion
for summary judgment by court’s consideration of documents that were not
#

attached to counterclaim but were attached to the complaint and the answer to
counterclaim). The undersigned also recognizes that generally if a court considers
matters outside of the pleadings, the court must convert the motion into one for
summary judgment under Rule 56. However, “[wjhen a court is presented with a
12(b)(6) motion, it may consider the Complaint and any exhibits attached thereto,
public records, items appearing in the record of the case and exhibits attached to
defendant’s motion to dismiss so long as they are referred to in the Complaint and
are central to the claims contained therein.” Bassett v. Nat 7 Coll. Athletic Ass ’n,
528 F.3d 426, 430 (6th Cir. 2008); see also Weiner v. Klais & Co., 108 F.3d 86, 89
(6th Cir. 1997) (noting that the Sixth Circuit has “held that ‘documents that a

6

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

#

PagelD.1112

Page 7 of 22

defendant attaches to a motion to dismiss are considered part of the pleadings if
they are referred to in the plaintiffs complaint and are central to h[is] claim’”)
(quoting Venture Assocs. Corp. v. Zenith Data Sys. Corp., 987 F.2d 429, 431 (7th
Cir. 1993)). Here, defendants purport to attach the parties’ contract as an exhibit to
the motion to dismiss but did not actually do so. However, the undersigned may
properly consider the parties’ contract, because it is mentioned in the amended
complaint and is part of the record. See Amini v. Oberlin Coll., 259 F.3d 493, 502
(6th Cir. 2001) (quoting Nieman v. NLO, Inc., 108 F.3d 1546, 1554 (6th Cir. 1997)
(The court may consider ‘“matters of public record, orders, items appearing in the
record of the case, and exhibits attached to the complaint,”’ without converting the

#

motion to dismiss into one for summary judgment.).
B.

Analysis

To begin with, in view of Rajapakse’s status as a pro se litigant, the Court
permits some leeway in evaluating her filings. However, even applying the less
stringent standard afforded pro se litigants in reviewing the allegations of their
complaints, the contours of Rajapakse’s claims are difficult to discern. See
Jourdan v. Jabe, 951 F.2d 108 (6th Cir. 1991) (“[W]hile/?ro se litigants may be
entitled to some latitude when dealing with sophisticated legal issues,
acknowledging their lack of formal training, there is no cause for extending this
margin to straightforward procedural requirements that a layperson can

7

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1113

Page 8 of 22

comprehend as easily as a lawyer.”). Notably, Rajapakse does not address the
substance of defendants’ arguments regarding the merits of any of her claims.
Rather she focuses on restating the allegations in her complaint. (Dkt. 124). And,
as discussed in more detail below, Rajapakse’s amended complaint does not
specify which statutory provisions were violated and simply fails to state any claim
on which relief may be granted.
Additionally, Rajapakse argues that defendants did not timely file their
motion to dismiss and that they should be judicially estopped from proceeding with
their motion to dismiss because they never filed an answer to the complaint.
Rajapakse misapprehends defendants’ obligation to file an answer and the
timeliness of their motion to dismiss. Rajapakse filed her amended complaint on
March 5, 2018. (Dkt. 40). On March 16, 2018, defendants timely filed their
motion to dismiss in lieu of an answer to the complaint (Dkt. 44), which is
expressly permitted under the Federal Rule of Civil Procedure. Fed.R.Civ.P.
12(b)(6) (The defense of failure to state a claim on which relief may be granted
may be raised by motion before pleading if a responsive pleading is allowed). On
July 19, 2018, defendants withdrew their motion to dismiss and separately moved
for an extension of time to answer or otherwise respond to the amended complaint,
in light of the stay of proceedings entered by the Court. (Dkt. 104, 105). On
September 10, 2018, the Court lifted the stay and granted defendants’ motion,
#

8

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1114

Page 9 of 22

permitting defendants 45 days from the date the stay was lifted to answer or
otherwise respond to the amended complaint. (Dkt. 118, p. 4). Defendants timely
filed their motion to dismiss the amended complaint on October 25, 2018, exactly
45 days after the stay was lifted. (Dkt. 123). Thus, Rajapakse’s complaints about
the untimeliness of defendants’ motion to dismiss are without merit.
1.

Magnuson-Moss Warranty Act

With respect to the warranty, Rajapakse says that the RIC included a
warranty on the subject vehicle, but that the warranty was either breached or
fraudulent since it was not honored when she attempted to use it. As a result, she
requested that it be removed. She also claims that CAC provided incentives for
dealers to offer a warranty on previously-damaged cars, with no intention of
honoring them. The Court need not, and indeed, cannot, address the merits of
Rajapakse’s MMWA claim because she has not sufficiently pleaded that she meets
the requirements for subject matter jurisdiction for this claim. As explained by the
Sixth Circuit in Golden v. Gorno Bros., Inc., 410 F.3d 879, 883-882 (6th Cir.
2005), subject matter jurisdiction over an MMWA claim requires a minimum of
$50,000 to be in controversy:
However, the jurisdiction of [MMWA claims] is subject
to an amount in controversy requirement. The applicable
portion of the Act provides, “No claim shall be
cognizable in a suit brought under paragraph (1)(B) of
this subsection ... (B) if the amount in controversy is less
than the sum or value of $50,000 (exclusive of interests
9

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1115

Page 10 of 22

and costs) computed on the basis of all claims to be
determined in this suit.”
Id. at 882 (quoting 15 U.S.C. § 2310(d)(3)(B); see also Sanford v. Ektelon/Prince
Sports Group, Inc., 1999 WL 33537914 (D. Neb. 1999) (“The statutory scheme
requires that each individual claim must be $25.00 or more and that the entire
amount in controversy must be at least $50,000.00.”). Notably, the Golden court
determined that interest paid over the life of the loan is not included in calculating
the amount in controversy. Golden, 410 F.3d at 885. Here, even considering
Rajapakse’s entire loan amount of approximately $17,000 (including interest),
nothing in her amended complaint suggests that her claims, even considered in the
aggregate, meet the jurisdictional threshold of $50,000. Thus, the Court does not
have subject matter jurisdiction over Rajapakse’s MMWA claim, and this claim
must be dismissed.
2.

Truth in Lending Act

In addition, Rajapakse’s TILA claim is barred by the statute of limitations.
A TILA claim must be filed within “one year from the date of occurrence of the
violation.” Lester v. Wow Car Co., 2014 WL 2567087, at *7 (S.D. Ohio June 6,
2014) (quoting 15 U.S.C. § 1640(e)), aff d, 601 Fed. Appx. 399 (6th Cir. 2015).
While not entirely clear from the amended complaint, it appears that any alleged
TILA violations would have to have occurred either at the time of the loan
origination on January 7, 2014 or when the warranty rebate was issued on July 7,
10

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1116

Page 11 of 22

2016. Rajapakse filed this lawsuit on September 8, 2017, more than one year after
each of these events. Thus, any TILA claim is barred by the statute of limitations
and must be dismissed.3
3.

Fair Credit Billing Act

As to Rajapakse’s claim under the FCBA, this statute does not apply to the
vehicle loan at issue in this case. As explained in Crenshaw v. Experian Info.
Sols., Inc., 2015 WL 3771691, at *3 (N.D. Ohio June 17, 2015), the FCBA applies
“only to open-end credit transactions, and, chiefly, to credit card accounts.” Id.
(quoting Jacobs v. Wells Fargo & Co., 2011 WL 5120408, at *2-3 (S.D. Ohio Oct.
27, 2011)). It does not apply to closed-end credit transactions. Id. (citing Stroman
v. Bank ofAmerica Corp. 852 F.Supp.2d 1366, 1374 (N.D. Ga. 2012) (“The
FCBA’s protections do not extend to closed-end credit, such as the mortgage loan
at issue in this case.”); Roybal v. Equifax, 405 F.Supp.2d 1177, 1180 (E.D. Cal.
2005) (“By its very terms, the FCBA’s billing error section applies solely to
creditors of open end credit plans.”)); see also Burnstein v. Saks Fifth Avenue &
Co., 208 F.Supp.2d 765, 772 (E.D. Mich. 2002), aff d 85 Fed. Appx. 430 (6th Cir.
2003) (The FCBA and its implementing regulations (Regulation Z), 12 C.F.R.
§§ 226.1 et seq., “set forth the procedures to be followed when a creditor receives

3 Notably, Rajapakse did not bring a TILA claim in her prior lawsuit, Case No. lb13144. Thus, there is no possibility that the limitations period for this claim was tolled during
the pendency of that lawsuit.
11

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1117

Page 12 of 22

notice from a consumer of an alleged billing error in the consumer's credit card
account.”). Based on the foregoing authority, the FCBA does not apply to the loan
transaction at issue in this case. Thus, Rajapakse’s FCBA claim must be
dismissed.
4.

Fair Debt Collection Practices Act

Rajapakse’s FDCPA must also fail as it applies only to debt collectors, not
creditors attempting to collect their own debt. Colson v. Wilmington Sav. Fund
Soc’y, 2018 WL 345174, at *6 (E.D. Mich. Jan. 10, 2018) (citing 15 U.S.C.
§ 1692a(6)); MacDermid v. Discover Fin. Servs., 488 F.3d 721, 734 (6th Cir.
2007). In this case, CAC was an assignee under the RIC dated January 7, 2014.
(Dkt. 32, Ex. 1-A, Pg ID 229-233). As explained in Colson, when a creditor
assigns a debt to another, the assignee may or may not satisfy the definition of a
debt collector under the FDCPA:
For an entity that did not originate the debt in question
but acquired it and attempts to collect on it, that entity is
either a creditor or a debt collector depending on the
default status of the debt at the time it was acquired. The
same is true of a loan servicer, which can either stand in
the shoes of a creditor or become a debt collector,
depending on whether the debt was assigned for
servicing before the default or alleged default occurred.
Wadlington v. Credit Acceptance Corp., 76 F.3d 103,
106-8 (6th Cir. 1996); see also Perry v. Stewart Title
Co., 756 F.2d 1197, 1208 (5th Cir. 1985).

»

12

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1118

Page 13 of 22

Colson, at * 6 (quoting Bridge v. Ocwen Federal Bank, FSB, 681 F.3d 355, 359
(6th Cir. 2012) (citing 15 U.S.C. § 1692a(6)(F)(iii))). Thus, “an entity attempting
to collect on a debt is only a debt collector if the borrower was in default at the
time the debt was acquired.” Id. Here, even assuming that CAC is not the
originator of the debt in question, Rajapakse has not alleged, nor does it appear that
the loan was in default at the time CAC acquired it, given that CAC acquired it on
the very same day that Rajapakse purchased the vehicle and the loan was
originated. (Dkt. 32, Ex. 1-A, Pg ID 232) (“FOR VALUE RECIEVED, Seller
hereby assigns and transfers all Seller’s right, title and interest in and to this
Contract, and in and to the Vehicle described herein, to CREDIT ACCEPTANCE
#

CORPORATION (‘Assignee’), its successors and assigns, pursuant to and
accordance with the terms and conditions set forth in the existing dealer agreement
between Seller and Assignee in effect on the date hereof.”). Thus, CAC is not a
debt collector as defined by the FDCPA and Rajapakse cannot state such a claim
against CAC.
5.

Fair Credit Reporting Act

As defendants point out in their brief, Rajapakse purports to allege in the
amended complaint that CAC violated the FCRA in the following ways. First,
Rajapakse alleges:
[1] It has been established by court records in submission
that Credit Acceptance Corporation has kept a poor
13

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1119

performance on the account related to providing accurate
information to the credit bureaus and to this court in an
attempt to make one accurate than another Credit
Acceptance Corporation (hereinafter Furnisher) violated
Rajapakse by intentionally reporting missing payments
not applied on her credit report from February 2014 to
August 2017 and from September 2016 to January 2017
causing her credit score to drop.
(Dkt. 40, Pg ID 298-299). Second, Rajapakse alleges the following:
[2] Credit Acceptance Corporation continue to report the
balance of the original loan as $10,889.34 to the credit
bureaus and provide the original contact of $17,334, 34
to the court as the original amount. After Rajapakse
disputed her report twice in August 2017 and February
2017 in which all three credit bureaus removed Credit
Acceptance Corporation off her credit as outline in the
Fair Credit Reporting Act. Credit Acceptance
Corporation violated this act by presenting a payment
history with supporting affidavit stating the higher
amount was more accurate than the amount reported to
the credit bureaus after Rajapakse filed two disputes with
all three credit bureaus.
(Dkt. 40, Pg ID 299). Third, Rajapakse alleges the following:
[3] Credit Acceptance Corporation violated 15 U.S.C.
§ 1681s by knowingly providing to the three credit
bureaus the information provides to the three credit
bureaus information believe to be inaccurate after being
notified of the inaccuracy. CAC is the sole person who
furnished information to the credit bureaus on
Rajapakse’s credit and use the inaccuracy to take
possession of her vehicle and in attempting to validate
the error to the court to show justification.
(Dkt. 40, Pg ID 299).

14

Page 14 of 22

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1120

Page 15 of 22

In the view of the undersigned, Rajapakse’s amended complaint simply does
not plead the factual content necessary for the Court to draw a reasonable inference
that defendants are liable for any violation of the law. Therefore, she fails to state
a claim under the FCRA. As explained in LaBreck v. Mid-Mich. Credit Bureau,
2016 WL 6927454, at *2 (W.D. Mich. Nov. 28, 2016), the FCRA regulates the
field of consumer reporting and governs the collection and use of consumer credit
information. The purpose of the Act is “to require that consumer reporting
agencies adopt reasonable procedures for meeting the needs of commerce for
consumer credit, personnel, insurance, and other information in a manner which is
fair and equitable to the consumer.” 15 U.S.C. § 1681(b). The Act covers three
#

main actors: (1) credit reporting agencies; (2) users of consumer reports; and (3)
furnishers of information to credit reporting agencies. LaBreck, at *2 (citing
Ruggiero v. Kavlich, 411 F.Supp.2d 734, 736 (N.D. Ohio 2005)). Like the plaintiff
in LaBreck, it appears from the instant complaint that plaintiff considers
defendants to be “furnishers of information” within the meaning of 15 U.S.C.
§ 1681s-2(a). LaBreck notes that while § 1681s-2 does not define “furnisher,”
courts have defined the term as “any entity which transmits information concerning
a particular debt owed by a particular customer to consumer reporting agencies.”
Carney v. Experion Information Solutions, Inc., 57 F.Supp.2d 496, 501 (W.D.
Tenn. 1999). The FCRA imposes two general duties on furnishers of information

15

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

#

PagelD.1121

Page 16 of 22

to a credit reporting agency: (1) a duty to provide accurate information, § 1681s2(a); and (2) a duty to undertake an investigation upon receipt of notice of dispute
from a consumer reporting agency, § 1681s-2(b). LaBreck, at *2.
In Paragraph 1 quoted above from Rajapakse’s amended complaint, she
alleges that CAC provided inaccurate information to the court and to credit
reporting agencies. As an initial observation, the law does not suggest that
i

providing inaccurate information to the court is a violation of the FCRA - though
doing so is certainly not advisable. Further, there is no private cause of action for
consumers against furnishers of information for failure to comply with § 1681s2(a), which addresses providing inaccurate information to the credit reporting
#

agencies in the first instance. Id. (citing Sanders v. Mountain America Fed. Credit
Union, 689 F.3d 1138, 1147 (10th Cir. 2012); Huertas v. Galaxy Asset Mgmt., 641
F.3d 28, 34 (3d Cir. 2011); Nelson v. Chase Manhatten Mortg. Corp., 282 F.3d
1057, 1059-60 (9th Cir. 2002); Elsady v. Rapid Global Business Solutions, Inc.,
2010 WL 2740154, at *5 (E.D. Mich. Jul. 12, 2010); Ruggiero, 411 F. Supp. 2d at
736; Carney, 57 F.Supp.2d at 502). Rather, the statute limits enforcement of the
duty to provide accurate information to specific federal agencies and officials.
LaBreck, at *2 (citing 15 U.S.C. § 1681s-2(d)). Thus, Rajapakse cannot sue
defendants for allegedly furnishing inaccurate information under § 1681s-2(a).

16

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1122

Page 17 of 22

In Paragraph 2 of Rajapakse’s amended complaint quoted above, she seems
to posit, in part, the theory that defendants violated the FCRA by providing
inaccurate affidavits and other information to this court. That is, Rajapakse claims
that what defendants told the Court about her debt was inconsistent with what they
were reporting to the credit reporting agencies. Importantly, Rajapakse asserts that
the information provided to the court was inaccurate, not what was provided to the
credit reporting agencies. Accordingly, these allegations do not state any viable
claim under the FCRA.
In Paragraphs 2 and 3 quoted above, Rajapakse also appears to be invoking
§ 1681s-2(b), which does provide a private legal cause of action. Boggio v. USAA
#

Fed. Sav. Bank, 696 F.3d 611, 616 (6th Cir. 2012). A claim under § 1681s-2(b)
claim requires a plaintiff to allege and prove: 1) that the duties under § 1681s-2(b)
were triggered by the defendants’ receipt of notice from a consumer reporting
agency that the information at issue was being disputed by the plaintiff; and 2) that
the defendant did not comply with its statutorily required duty to investigate the
dispute. Baker v. JP Morgan Chase Bank, 2017 WL 395092, at *4 (M.D. Tenn.
Jan. 30, 2017), report and recommendation adopted sub nom. Baker v. JP Morgan
Chase Bank, 2017 WL 841141 (M.D. Tenn. Mar. 2, 2017) (citing Downs v.
Clayton Homes, Inc., 88 Fed. Appx. 851, 853-54 (6th Cir. Feb. 9, 2004); Burgess,
2010 WL 1752028 at *2). Importantly, “the duty of a furnisher of credit

17

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

#

PagelD.1123

Page 18 of 22

information to investigate a credit dispute under Section 1681 s-2(b) is triggered
only after the furnisher receives notice of the dispute from a consumer reporting
agency. Notification from a consumer is insufficient.” Baker, at *4 (quoting
Westbrooks v. Fifth Third Bank, 2005 WL 3240614, *4 (M.D. Tenn. Nov. 30,
2005)).
Viewing Rajapakse’s complaint in the light most favorable to her, she has
arguably alleged in her complaint that she disputed a debt with a credit reporting
agency and the agency, in turn, provided CAC notice of such a dispute, thereby
triggering the duty to investigate by defendants as a furnisher. However,
Rajapakse has not alleged that defendants failed to conduct such an investigation
or comply with any other statutory duty. Indeed, it is not clear from the allegations
in the amended complaint how defendants are alleged to have violated the FCRA.
See Moore v. Capital One Serv., LLC, 2013 WL 1136725, at *3 (W.D. Mich. Feb.
26, 2013) (report and recommendation adopted in 2013 WL 1129608) (“to state a
claim, plaintiff must allege that he complained to a credit reporting agency, that the
credit reporting agency notified defendant of the dispute, and that the defendant
failed to conduct a reasonable investigation or other specific duty established by
the FCRA”). Rather, Rajapakse’s allegations in Paragraph 3 recite the elements of
a claim under § 1681s-2(b) without any factual support delineating which statutory
duty(ies) defendants violated. See Strohmeyer v. Chase Bank USA, 2018 WL

18

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1124

Page 19 of 22

2669991 (E.D. Tenn. June 4, 2018) (Conclusory allegations of a dispute debt are
insufficient to state a claim); Anderson v. Northstar Mortgage LLC, 2018 WL
3328059, *4 (M.D. Tenn. July 6, 2018) (The plaintiff failed to state an FCRA
claim where he did not allege any facts suggesting the defendant failed to
“investigate such a dispute, review information provided by a CRA, report the
results of its investigation, or take action based on the results of any investigation,
or that it otherwise violated its obligations under § 1681s-2(b) ”)• Moreover,
Rajapakse’s allegations suggest that the credit reporting agencies removed the debt
from her credit reports after she disputed the debt. (See Dkt. 40, Pg ID 299)
(“After Rajapakse disputed her report twice in August 2017 and February 2017 in
which all three credit bureaus removed Credit Acceptance Corporation off her
credit as outline in the Fair Credit Reporting Act.”). This allegation would seem to
contradict any claim that defendants violated their duties under § 1681s-2(b).
Because the amended complaint contains insufficient factual allegations to support
a claim under § 1681s-2(b) and because allegations in the complaint contradict her
claim that defendants violated the FCRA, Rajapakse has failed to state a claim on
which relief may be granted under § 1681s-2(b).
6.

Fraud

Finally, Rajapakse’s fraud claim also fails because she has not pleaded it
with any particularity as required by Federal Rule of Civil Procedure 9(b). This

19

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1125

Page 20 of 22

case is similar to the circumstances presented in Freund v. Deutsche Bank Natl Tr.
Co., 2014 WL 12658843, at *3 (E.D. Mich. Oct. 22, 2014), where the plaintiff
mentioned the word “fraud” only once in his complaint. The court concluded that,
even construing the complaint liberally to assert a claim of fraud, the plaintiff
failed to meet the heightened pleading requirements of Rule 9(b), which require
plaintiffs to plead the “who, what, when, where, why and how of the alleged
fraud.” Id. Here, Rajapakse’s only allegation regarding her fraud claim in her
amended complaint is as follows:
Credit Acceptance Corporation breach of warranty
presented a common law of fraud due to the existent or
preexisting fact the warranty purchased CAC nor dealers
or affiliates had no intentions of honoring such service,
knowing made the impression or false claim of the
warranty, the representation of the warranty was intended
for Rajapakse to rely on the warranty, Rajapakse has
reasonably to rely on it, and a result she was injured by
its breach.
(Dkt. 40, p. 6). Rajapakse provides, at most, a portion of the “what,” but no
specific details regarding the “who,” “when,” “where” and “why” to support her
fraud claim and has not met the pleading requirements of Rule 9(b). Thus, her
fraud claim fails on the merits.

20

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

V.

PagelD.1126

Page 21 of 22

RECOMMENDATION
For the reasons set forth above, the undersigned RECOMMENDS that

defendants’ motion to dismiss be GRANTED, and that Rajapakse’s remaining
motions be TERMINATED as moot.4
The parties to this action may object to and seek review of this Report and
Recommendation but are required to file any objections within 14 days of service,
as provided for in Federal Rule of Civil Procedure 72(b)(2) and E.D. Mich. Local
Rule 72.1(d). Failure to file specific objections constitutes a waiver of any further
right of appeal. Thomas v. Arn, 474 U.S. 140 (1985); Howard v. Secy ofHealth
and Human Servs., 932 F.2d 505 (6th Cir. 1981). Filing objections that raise some
issues but fail to raise others with specificity will not preserve all the objections a
party might have to this Report and Recommendation. Willis v. Sec ’y ofHealth
and Human Servs., 931 F.2d 390, 401 (6th Cir. 1991); Smith v. Detroit Fed’h of
Teachers Local 231, 829 F.2d 1370, 1373 (6th Cir. 1987).
Any objections must be labeled as “Objection No. 1,

ii

Objection No. 2,”

etc. Any objection must recite precisely the provision of this Report and
Recommendation to which it pertains. Not later than 14 days after service of an

4 On January 27, 2019, plaintiff filed a document entitled “To the Honorable District
Court of the Eastern District,” in which, amongst other things, plaintiff advises the Court of
information relating to the recent return of some of her property. (Dkt. 135). The filing is not a
motion and does not request any relief. Therefore, the undersigned makes no recommendation
concerning the same, but rather by this footnote simply acknowledges its content and the
sentiment conveyed therein.
21

Case 4:17-cv-12970-MFL-SDD ECF No. 136 filed 01/30/19

PagelD.1127

Page 22 of 22

objection, the opposing party may file a concise response proportionate to the
objections in length and complexity. Fed.R.Civ.P. 72(b)(2); E.D. Mich. Local
Rule 72.1 (d). The response must specifically address each issue raised in the
objections, in the same order, and labeled as “Response to Objection No. 1,”
“Response to Objection No. 2,” etc. If the Court determines that any objections are
without merit, it may rule without awaiting the response.
Date: January 30, 2019

s/Stephanie Dawkins Davis
Stephanie Dawkins Davis
United States Magistrate Judge
CERTIFICATE OF SERVICE

I certify that on January 30. 2019.1 electronically filed the foregoing paper
with the Clerk of the Court using the ECF system, which will send electronic
notification to all counsel and/or parties of record.
s/Tammy Hailwood
Case Manager
(810)341-7887
tammy_hallwood@mied.uscourts.gov

#

22

{

J

Appendix D

(

\

(

Case 4:17-cv-12970-MFL-SDD ECF No. 30-4 filed 02/15/18

PagelD.203

Page 1 of 1

ScoroSense 1 Experian

H

Credit Acceptance

©

/"O' "•

I *»

Individual Account

3

01.01.2014

$10,893

$5,640

Past Due

Ouwncd

HighBaiiitico

Balance

Vehicle Loan

Open

10.18.2016

$361

Dnttffttjunrtci!

P«y inert

A’.'i'O’.intTv’x*

Creditor Contact: PO1^513.SQU1W1ELC.MUS037:[>vma(LONiv

Remarks: CustwnertJfr-autol d'.cciiin -reposed by-..(Kiser-ber.

Payment History
lart

fci>

Mar

Apr

May

it: it

Ju:

Aug

Sep

On

Nov-

Dee
I

2016

I

I

NR

2015

201?

<

Exhibit:
Missing payment Jan.-Sept 2014 9 payments missing
payment was made ( Plaintiff can verify with the court. Coupon in vehicle)'

Payments from Jan, 2014 to Aug. 2016 total

payments @ 361 a month total $11,191.00 paid

o
CO
<

o>
o

si**
o

co
CO

c
-f*,S>

a
p- a
dz

CO
CO

Q

flj

C

□

h-

sag

I

>< c

3J

S

*5 Cg

&

CO

•5 O)

:s
a
J
.o
.1

1 S'

O

a.S'
8s

CD
CD

ll

CD Q-

co
o
o
CO
CM

N
CM
o

O
CO

ii

a
z

CD <

CO
LO
LO

S'

CL

2

12

Is

£

• ro

O
CO

Q Cl)

S

CD

■1

05

.S'

I
<
5

,TJ

•cc

.

H-

a> c
cl «o
>. o

.£ 0>

s

&1
I3
OJ

s

O

co

s«

o

2

8%
S'
£

c
3

M

■Q

a

%
p .•*r£

■a

p

p

o

o

o

c
3
O to ©
E CO 3

2
o

-p

*2
CO

.t;
T3

■p
co
O
.t;

p

-O

p

~o

p

~c

o

o

o

o

cO

CO

O

O

p

-a

o

o

.t:
TJ

.*=

p

O

~

■p
co
O
.ts

p

o

&

<0-0

o
CM

6^-

o

2

•s

?E

<
z

<A

OJj

•o

,tr

•p

o
LL

i!
as

§

1

TJ

p

■p
co
O

p

**-2 £
ss« Q
c Q-I O
H
O
<
2
5
s £E

in

co
O

-O

I-^jll C! z

to

■o

co
O

.•tc

a> O
i o

3

CO

2 M <D
E CO 3
< CL Q

■a

co
O

‘S

0) c
CL CO
5k O
1- _i

■p

•ST

<

■D

CO

o

TJ

3

"O

5

Oj

o
o

o
o

CO
69

CO
69

o
o

CO
69

o
o
co

CD

o
o

CO
69

o
o
co

69

o
o

o
o

CO
69

CO
CO

o
o

o
o

CO
69

CO
69

0)
05
CO

a

Q

c

t
o
Q
I I LO <
3
E

1<

CO
05
■V

l(L69

o

.2>£
Xo

CD

4-*

“p

If §
*58

CO

Si!

% 03 «
Q _J 0-

co

$ to >•

p

Ii°

—

CD

CD

CO
69

CO
CO

CO
69

CO
CO
69

CO
CO
CO

a>

CO

CO

00

05

05

o

©

o

o

o

Si!

Si!
T—

Si!
T**

o
Si!

CM

CM

CM

O

CM

CM

o>

T3

o

<
p

r-

u

NCD

CM

r^CO
CO
69

hCO
CO
CO

CO

CO

o

o

Si!

Si!

O)

CO

00
CO
CO

XI
c
o

8

"D

CM
0>
CO
69

.S»£
Xo

o

o

E

=o

I

3

CD

<15

<

a)

*o

c

£

I | S'

c

as

o

o>

<0

Q JH

r—

lo

▼—

co
o
Si!
t—

CD

CO

E
5
&

■i

CD

c *->

_ <D C
CO C 3
3 t. o

o
o

o ro £
< cl <

CM
CO

Q.
3

§
CO
C9

T3
05 *-<

§

'S
E
£

1 ©

o—>

11
g
o«E
<0 CL <

0)

h-

liS

.a
<0

CO

_C

O

S8
D_i

o»

&

g

a
_ 0) c

s g.§

to

o <0 E
< CL<

CO

*1®

n§

O

<0

H

5

S& o

SC

CD
CO

1®
SiSi!

-So

o

o
O

o

69

CO

LO
60

LO
CM
CO

LO
CM
CO

co

co

LO
CM
CO

LO
CM
CO

LO
CM
CO

LO
CM
CO

LO
CM
CO

LO
CM

LO
CM

£
4>

3

IS
Q.

Q CO
c E
p Q

CD 8
TJ

p

c\

O)

5

S

"O
9

§

%
E

o

I ® C

1o 1°
in E

co a <

LO
CM
CO

LO
CM
69

LO
CM
69

LO
CM
CO

to

CM
69

0)

o>

as

i

I

Q
CD

<
CO

o>
■tf-

o
cm
CM
CM
O

r*.
CO
CM
CM
O

o

§C3
o
in

o
co
o
CM

o

o

o

o

3

3

3

<

<

in

o>

o
3

<

<

CO

co

d

<C

co

CO

r*

<H
in
to

in

to

to

to

<5”

o

CO
O)
(0

CL

CO
<3

CO
05

CO
05

CO

o
to

o
to

o
to

o
to

No
£!

CO

CO

CO

o

o
C!

o

CM

co

CO

CO

o
o
CM
to

o
o
to

o>
®.

c
o

o
o

'€

§

'S

CM
to

E

£

CM

o

CO
CO

to

g
<
2
tr

o
U_
o>
in

to
CO

lU

z

<
z
O

b
Q
Q

<

3
O

T3
CD
<0
(A

o

£

<

=
3

z
CO

ca

o
>*

co
.c
CO

B C 2
3 3
CL O
(0 O

a>

53 <= - _
c o i_ S
§ '■§ 2 *
co © a. "o
C
O

=
O

CO
SZ

CD

CD

3
ccj

3
co

>
<

1
>
<

3
cO
$o

CO

CO

<
2
CO

Q
o

O
o

Q
o

_co

£
«J

5^s

CD

CD
x

OOOC

z
hCM

to

z
r-»

co
to

<
5
cc

o
LL
o

z

to

h-

r-

O

O

in

Z

05

o

8|
o

<

co O

3
CL

«

C
CO

»_

CO

i

CD

»

D.

<
2
tr

CA

z

E

(A

O

>.

CD

3

CO
CO

to

CO

O

E

<
5
tr

Q

CA

>.

3

>
<

o
U-

3

Z

c

CO

Z

c

«» <
z
in
to Q
r» b

CD

<

CD

Q
Q

CO
_C

o

co

§ _£I
O O

g
P

TJ
CD
CO
CA

o
LL

2

a>

<

to

<0

3

g
a

CO
CO

£ o
Q CO

E

s

CD
to

<!
O

•a

"D

CO

o

<

<0
CO

2

CL

O

TS

Q
o

o

CO

CD

o>
co
CL

*
CD

z
c

o
T3
CD
3

z

in

z

CO

to

h-

b

CD

c

h-

CO
_C

o
O

h-

o

<£5

o

O
Q
O
<

C

O

Appendix E

I

Case 4:17-cv-12970-MFL-SDD ECF No. 78 filed 06/15/18

PagelD.621

Page 2 of 6

UNITED STATES DISTRICT COURT
IN THE EASTERN DISTRICT OF MICHIGAN
SAMANTHA RAJAPAKSE,

Case No. 17-12970
Matthew F. Lcitman
United States District Judge

Plaintiff,
-vs-

CRED1T ACCEPTANCE CORPORATION,
CREDIT ACCEPTANCE CORPORATION
BOARD OF DIRECTORS, STEVEN M.
JONES, BRETT A. ROBERTS, DOUGLASS
BUSK, SCOTT VASSALLUZO, THOMAS
TRYFLOROS. GLENDA FLANAGAN,
DANIEL A. ULATOW5KI. JOHN S. SOAVE,
ARTHUR SMITH, CHARLES PIERCE,
SANDY POLLOCK, ROB WILLIAMS, AND
1 STOP AUTO SALES,

Stephanie Dawkins Davis
United States Magistrate Judge

Defendants.
Samantha Rajapaksc
Plaintiff In. Pro Per
7114 Tanagar Court
Cattanooga, TN 37412
(901) 237-0744
samantharajapakse@ymail.com

Stephen W. King (P5G456)
King and Murray PLLC
Attorneys for all Defendants except
Rob Williams and 1 Stop Auto Sales
355 S. Old Woodward, Ste. 100
Birmingham, MI 4800D
(248) 792-2398
skingSkingandmurray.com
Joshua C. Castmore (P7632G)
Attorneys for Defendants Williams
and 1 Stop Auto Sales only
24725 W. 12 Mile Rd., Ste. 306
Southfield, MI 48034
(248) 246-1166
jcastmorc@maxwelldunnlaw.com

AFFIDAVIT OF ROBERT WILLIAMS

L

Scanned by CamScanner

Case 4:17-cv-12970-MFL-SDD ECF No. 78 filed 06/15/18

PagelD.622

Page 3 of 6

State of Tennessee)
)SS
County of
)
Robert Williams, being first sworn, deposes and says:
1. 1 am the Managing Member of 1 Stop Auto Sale LLC d/b/a 1 Stop Auto Sales ( 1
Stop”) and as such, I am authorized by 1 Stop to make this affidavit on its behalf.
2. 1 Stop is in the business of selling used vehicles.
3. As the managing member of 1 Stop, I sell vehicles “as is". I do not require
customers to purchase a Vehicle Service Contract (“VSC"), but 1 do encourage it
because I believe a limited warranty is better than no warranty. I obtain all vehicles
on the 1 Stop lot.
4, Defendant Credit Acceptance Corporation (“CAC”), is a finance company which
lends to consumers purchasing a vehicle. CAC does not choose the vehicles in 1
Stop’s inventory but CAC does choose what products a dealer can sell a customer.
CAC also has certain guidelines as to which vehicles they will provide financing on
and which they will not. Upon belief, CAC’s decision as to whether to finance a
vehicle is made on a case-by-case basis, and pursuant to its guidelines. Upon belief,
CAC uses “Autocheck" to review an individual vehicle before making a decision as
to whether to offer financing to a customer.
5, I also encourage customers to purchase a VSC because I run a small dealership
and do not have a mechanic on staff. I am also not a mechnnic.

i

Scanned by CamScanner

Case 4:17-cv-12970-MFL-SDD ECF No. 78 filed 06/15/18

PagelD.623

Page 4 of 6

6. CAC docs not requite dealers to include VSC’s as a term of financing. However.
CAC will only allow the dealer to sell the products they offer to customers who
purchase a VSC or any other products such as gap insurance.
7. CAC does not insist that VSC’s arc included as a condition of financing hut will
only finance the products they offer.
1

8. On average, there is a profit increase of $385.00 when a VSC is sold.
9. CAC provides the dealer with information about the VSC that is shared with the
customer at the time of a purchase of a vehicle. A copy of the VSC should be
provided to the customer at the time of sale. I am not aware if the underwriter of
the VSC is disclosed within the document provided to customers. I am not aware if a
telephone number to cancel a warran ty is provided within the VSC provided to
customers.
10. The VSC contains written materials including what mechanical coverage is
included or excluded from the contract.
11. The customer should he provided with a copy of the VSC once the sale is
completed.
12. CAC does not encourage or discourage dealers to provide a verbal description of
the terms of the VSC.
13. The VSC IS supposed to covers the motor, transmission, drive axle, transfer
case, steering and air conditioner with a $100.00 deductible and other limitations.
14.1 make my best efforts to explain to ray customers that the VSC is not “bumper
to bumper” coverage, but is a limited service contract.

Scanned by CamScanner

Case 4:17-cv-12970-MFL-SDD ECF No. 78 filed 06/15/18

PagelD.624

Page 5 of 6

15. CAC has a system that scores customers on a scale of 1-10. 1 being the "host." 10
being the “worst." The total VSC costs varies from customer to customer depending
on their score, and the year, make, and model of the vehicle they purchase.
16. The dealer is allowed to keep $385.00 once a VSC is sold. 1 am not aware of the
financial relationship between CAC and the insurer.
17.1 do not know if CAC is the “reinsurer” of the VSC, and what their prefit gain is
when a VSC is sold.
18. The dealer’s fee is collected within days of the sale of a vehicle with a VSC.
19. The dealer’s fee does not change if a customer files a claim against the VSC.
20. Customer claims under the VSC do not affect how much the dealer is paid on
the subject file, or on future sales. However, if a customer’s vehicle breaks down and
is repossessed due to lack of payment, it does affect the dealer rating.
#

21. To my knowledge, CAC docs not discourage dealers from performing repair work
under the VSC but the dealer is allowed to offer only the products supplied by CAC.
22.1 do not know what happens with o VSC once a vehicle is repossessed. After the
dealer sells a vehicle, CAC handles all collections, arbitration, repossessions, etc.
CAC does not request, any input from the dealer.
23. The dealer is not expected to contact the customer to inform customers if/when
coverage is no longer needed. It is my belief that any and all contact as it relates to
the VSC is handled by CAC and/or the insurer.
24.T have not been discouraged by CAC to take steps to terminate VSC coverage or
to notify customers that they should take steps to cancel the contract. However,

Scanned by CamScanner

Case 4:17-cv-12970-MFL-SDD ECF No. 78 filed 06/15/18

PagelD.625

Page 6 of 6

once the sale has been made, the dealer lias no input with respect to the VSC, Any
and all communication regarding the VSC would he between the customer and CAC
or the insurer.
25. There arc other VSC’s that I am able to offer to customers who are purchasing a
vehicle for cash, or with credit union financing. However, CAC will only offer
financing to a customer if one of two VSC's are used. I do not have the option to
provide customers with a different VSC than the two which are approved for use by
CAC.
26. I declare or certify under penalty of perjury that the foregoing is true and
correct executed on June (t .^2018

1 Stop Auto Sale LLC
By:

nu

Robert Williams
Its Managing Member
Subscribed and sworn to before
me this /jfodamifJuncj 2018.
If,/,
County of
| flit
My commission

Oi ,

State otrm
Tennessee

i? / STATE OF \ %
I : TENNESSEE j S
§ : NOTARY- \ §
3. * pubuc : s

A

Scanned by CamScanner

Case 4:17-CV-1297G-MFL-SDD ECFNo.48-1 filed 03/29/18

PagefD.431

Page 1 of 1

Affidavit

I, Christopher Arthur do hereby state I am over 21 years old and make this submission at my own will
without coercion or duress. I am making this statement of my own personal knowledge of Credit
Acceptance Corporation regarding the warranty (Wynns Plus) and service on my vehicle. I am currently
a Credit Acceptance Corporation Customer.
1. 1 purchased my vehicle, 2007 Dodge Charger from five town Auto in Queens, New York in 2016. On
the vehicle it stated the vehicle has an existing warranty. The dealership told me the warranty
covered everything except the transmission and my deductible was $100.00.1 was old for the
warranty to be any good I had to have it checked by a certified repair shop.

i

2. Three months after purchasing the warranty, I had to take the vehicle to a reputable repair shop to
have it repaired. I was told I had to pay a $500.00 fee to have the vehicle diagnosed.
3. I was told by the repair shop the warranty company would pay the deductible and half of the out of
pocket expense

4. I was told by a certified repair shop the amount to get the vehicle repaired exceeded $8,000 (eight
thousand dollars) to have the vehicle repaired of all the defects. Due to financial hardship of the
vehicle, I am unable to have the vehicle repair and the vehicle has been sitting unable to drive and I
have been using public transportation.

\

5.

i

I was pressured to purchase the warranty because it was already on the^ontract at the time of the
purchase and I did not ask for it.
Date;

L

Sworn before me on this

My commission expires:

o{q

day of March, 2018

tOoJ M x>z

Notary

d

■1
«
i

*.>

.v.'

• .

Ms&riaT

v , Notary Public * State of New York
NO. 01W635O6O9
Qualified in Kings County
My Commission
Nov !4 L5G?l>
... m

i

Appendix F

/
1

If

l
1

t

Appendix G
;

i

;

/
K

(
j

)
;•

Case 4:17-cv-12970-MFL-SDD ECF No. 30-5 filed 02/15/18

PagelD.204

Page 1 of 1

^vr.— >

Ac^tfhce

*f*W«4.|W

2\U\TJ{{

A.1**

AU

li5,lf

./|«.l||.H-,,Mnlll*,l-lh*,*M,ll,,lil,ll,l'll!|||»Mlll‘ill
0-883-52303-0000386-001-1-000-000-000-000
SAMANTHA RAJARPAKSE
1435 RAGAN ST
MEMPHIS TN
38106-6101

u,Qi

OATE;

<f

^EBP.UiRv -ig 2o.

IMt .x

AMOUNT NOV/ OUE:
LAST OATE FOR PAYMENT:

37 /Ls /

vetViU^reta^in^^^^co^ltraclf11^^100

ACCOUNT i

*77067517
»

301.07

03/17/',6
I
I

NOTICE OF DEFAULT
y°Ur
and resP0nsibilHi6S ur)der ttie Allowing

Original Date of Contract:
01/07/14
Original Amount of Contract: S 17334,24
Collateral Securing Contract: 2007 Chevrolet Trailblazer

motor

i

1

UNITED STATES DISTRICT COURT OF EASTERN MICHIGAN

2
3
4
5

JURISDICTION

SAMANTHA RAJAPAKSE,

6

Plaintiff,

7
VS.

8

CREDIT ACCEPTANCE CORP
9
ETAL
10

NO: 4:17-CV-12970

Defendant (s)

DOCUMENTATION OF LETTER TO SUPPORT
ON ANALYSIS OF PAYMENT HISTORY AND
CREDIT REPORT FURNISHED BY CREDIT
ACCEPTANCE.
DISTRICT JUDGE MATTHEW LEITMAN

MAGISTRATE STEPHANIE DAWKINS-DAVIS

11
12
13

TO THE DISTRICT COURT OF EASTERN MICHIGAN, Plaintiff bring'

14

submission of Edmund Ford, Jr. on the overview of Plaintiff’s Samantha Rajapakse’s accourn

15

against the Defendants, Credit Acceptance Corporation and all parties involved, except Rober

16

“Rob” Williams, Managing Partner and One Stop Auto Sales. Ms. Rajapakse’s complaint ha*

17

been before this court for almost one Mr. Edmund Ford, Jr. letter is submitted at rebuttal evidence
18
19

in disproving previous statement made by Counsel for Credit Acceptance, Stephen W. King

20

payment history submitted on the record of the court by Credit Acceptance, and the affidavit o1

21

Laura Belleville Management of Credit Acceptance.

22
23

INTRODUCTION OF EDMUND FORD, JR INTO EVIDENCE
24
25
26

Edmund Ford, Jr. is the son of former City Council Edmund Ford Sr. cousin to former

27

Congressman Harold Ford, Sr. and Harold Ford, Jr. Mr. Ford, Jr. resides in Memphis, Tennessee

28

DOCUMENTATION OF LETTER TO SUPPORT ON ANALYSIS OF PAYMENT HISTORY AND
CREDIT REPORT FURNISHED BY CREDIT ACCEPTANCE. - 1

1
2

Shelby County and is currently a member of the Shelby County Commission as a Commissions
for the 9th District of Memphis. Edmund Ford, Jr is a graduate of Central High School. Mr. Ford

3

Jr education flourished in 1994-2004 as an Academic Lab Specialist at Tennessee State University
4
5

In 2004 Mr. Ford, Jr obtained his Bachelor of Science in Mathematics from Tennessee State

6

University, in 2001 he later obtained his Masters in Mathematics and Science from Tennessee

7

State Universality as well. In 2008 he became the youngest member as City Council District 9 ft»

8

the City of Memphis City Council. Mr. Ford, Jr. has been a vital part of the counsel in drafting

9

new and amending the city’s proposed budget. Mr. Ford, Jr. became a major role play when the
10
ll

city was in dispute about loss wages with the City of Memphis Police and Firefighters ovei

12

insurance. Mr. Ford, Jr. from 2007-to 2018 was secondary mathematics teacher and lead Algebrt

13

I Instructor for Shelby County Schools formally known as Memphis City Schools. Mr. Ford, Jr

14

currently holds a position with the Shelby County Commission in which he assist now with the

15

county budget. Mr. Edmund Ford, Jr. also holds five additional degrees including from Vanderbil
16
17

University and Strayer University in Political and Administrative Supervision.

18
19

REPORT OF CREDIT ACCEPTANCE ACCOUNT

20
21

Plaintiff, Samantha Rajapakse, representing herself questioned Mr. Edmund Ford

22
23

Jr. was it possible issues (1) Can a sole installment loan have two original loans being reported*;

24

(2) Was it possible for a sole installment loan which has one high loan amount and one low loar

25

amount to arrive at the same balance amount? (3) Could he give a detail of which payment of th<

26

two (2) of Credit Acceptance’s history was more verifiable to verify a debt? (4) Which sourct

27
28

would be more creditable (5) Did Credit Acceptance have the legal right with the documentation
DOCUMENTATION OF LETTER TO SUPPORT ON ANALYSIS OF PAYMENT HISTORY AND
CREDIT REPORT FURNISHED BY CREDIT ACCEPTANCE. - 2

i

DR. EDMUND LORD, JR.
Commissioner
District 9

January 23. 2019

Samantha D. Rajapakse
7! 14 Tanager Court
Chattanooga. TN 37412

l

Dear Ms. Samantha Rajapakse:
Ms. Samantha Rajapakse has asked me to review an account site is associated w ith and pro\ idc my
opinion. 1 know Ms. Rajapakse personally working with heron political issues in the city of Memphis and
professionally as well.
1 am a former Math teacher working with the Shelby Count}' Schools formally Memphis City
Schools. I was also a former City Councilman lor the City of Memphis where I have drafted proposed eitv
budgets for fiscal years for the operation of the city. 1 obtained my Bachelor's degree Mathematics and
Master s Degree in Mathematics and Science. Based on m\ experience and education Ms. Rajapakse asked
me to review her account with a creditor. Credit Acceptance Corporation over an installment loan of a
vehicle.
After rev iewing two (2) payment histories from the company and Ms. Rajapakse's detailed credit
report, related to two (2) original balances of a higher anc! lower amount resulting in the same balance is
highly impossible. After careful review of documentation presented I could not come to any conclusion of
which balance can be validated as the accurate amount.
Sincerely.

Edmund ford. Commissioner

m

VASCO A. SMITH, JR. COUNTY ADMINISTRATION BUILDING
IAA \U^.k

C

c..:.,. /Cnn

......-L;.

TV join)

nm

f\ru\

r\

i

^ AA >

Case 4:17-cv-12970-MFL-SDD ECF No, 91-1 filed 07/08/18

PagelD.728

Page lot 2

EASTERN DISTRICT OF MICHIGAN SOUTHERN

■

m

DIVISION

w
Case No. 4:17-cv-12970

SAMANTHA RAJAPAKSE

Matthew F. Leitman

Plaintiff

United States District Judge

Stephanie Dawkins Davis

V.

United States Magistrate Judge

CREDIT ACCEPTANCE CORPORATION
ETAL
Defendant (s)

AFFIDAVIT OF KIP FITZGERALD

I, Kip Fitzgerald of Arkansas do hereby present this affidavit as my sworn testimony to the court
and all parties related to Credit Acceptance Corporation. I obtained a loan with Credit Acceptance
Corporation. I make this affidavit of my own free will and not under any duress or payment I am over
18 years old and I have full knowledge the overcharging related to the warranty Credit Acceptance. These
are my own words
Do you know Plaintiff? No. I met her on social media (FaceBook) of a post she asked about
anyone having a loan with Credit Acceptance that had an issue with the warranty or payments of their
account. I am having issue with over charging

1. Do you have or every had a vehicle financed through Credit Acceptance? Yes. I currently
have a 2014 Nissan Maxima that I financed February, 2018.

Case 4:17-cv-12970-MFL-SDD ECF No. 91-1 filed 07/08/18 PagelD.729 Page 2 of 2

2. I lave you had any problems will* the warranty? No. I was told the warranty was included. In
the sale. I am not sure if they add it in the price itself or placed in in the loan and then add it up
as the total.

3. Why do you want to submit an affidavit to the complaint? The value of the vehicle is $14,000
and they are saying tiie total value of the vehicle is $35,000.00. This does not make any sense. I
have bank draft so the loan is never late. They take the payment out of my account once a month,
i have not had any repos or late payments. My payments are $560.00 a month. I can not
understand if the warranty was included in the sale price why is the payoff so high?

4. If I have to go to court on this matter or anywhere. I will testify this affidavit as my answer of
truth.
Sworn before me on this/Vr:j- day

2018.

Date
Kip Fitzgerald

1

my COMMISSION #ri^&804

|

1

EXPIRES: December 19.2023 l
cmtendanCounW^J]

o
Notary

My commission expires:

!

f

Case 4:17-cv-12970-MFL-SDD ECF No. 54-1 filed 04/11/18

PagelD.463

Page lot 3

Affidavit of Marcus Mayes

1
AFFIDAVIT OF MARCUS MAYES

I, Marcus Mayes, do hereby under the sworn oath before the Notary, do hereby provide this statement
related to Credit Acceptance Corporation on behalf of the warranty. I am over twenty-one (21) years of
age and is competent have personal knowledge regarding Credit Acceptance Corporation and the sale
and services of the warranty. I make his statement under no duress and this statement is true to my
personal knowledge.

1.

Tell about the purchase: I purchased a 2010 Buick Lacrosse from A-l Auto Sales in Memphis,
Shelby County, Tennessee January or February 2016. My vehicle is financed through Credit
Acceptance Corporation with an attached vehicle Warranty on the installment loan. At the time
of the purchase of the warranty the sales representative told me the warranty covered the
vehicle if I paid the deductible which was $200-$300 dollars. I was to take the vehicle to an
authorize dealer who service the warranty.

2.

Did you request for this coverage? No. I was told it was part of the vehicle.
i

3.

Did he tell you what was not covered? No. He (salesperson) said the entire vehicle.

4.

Where you provided with any authorize dealer? No

5.

Did you every call Credit Acceptance as to related to the warranty? Yes. Credit Acceptance told
me the same thing the sales person told me with the warranty. I could take I anywhere.

6.

7.

Where you provided a documentation? I was provided a pamphlet of what was covered.

Did you receive any information related to the warranty after the sale? Yes the same pamphlet

which was provided to me at the purchase of the vehicle.

8. Did you attempt to use the warranty for the vehicle? Yes. After purchase I kept hearing a
thumping noise on the tires. I thought it was the brakes, so I had my brakes replaced at a repair

1

i

Case 4:17-cv-12970-MFL-SDD ECF No. 54-1 filed 04/11/18

PagelD.464

Page 2 of 3

Affidavit of Marcus Mayes
shop. After my breaks were replaced the noise got worse so I knew J could take the vehicle to a
dealership, so I drove the vehicle to Bulck dealership on Olive branch, Mississippi to Have the
service department to look at it.
9. How did you know to take it to that dealership? Because that was the manufacture of my
vehicle Buick.
10. Did Credit Acceptance or the dealership provide you with a list of authorize dealerships? No.!
so I just took the vehicle to that dealership.

11. What happened next? I presented he warranty pamphlet that was provided to me and the
service technician immediately informed me the dealership did not like deal with this warranty
because they never pay their claims related to the warranty. The technician said i had to pay
the $125.00 for inspecting the problem and my deductible was $100.00. After inspecting my
vehicle, the technician said it was my wheel hub.
12. Was that covered under the warranty? Yes. The technician showed me it was covered on the
pamphlet. He also told me that I would most likely need my deductible and extra money
because they would not pay for all of it.
13. Was the claim covered? the total amount was $760. The claim amount was $590.00, and I had
to pay 130.00 deductible and an additional $40.00.
14. Is there any additional information you would like to add? Yes. The technician informed me
that they did not like to accept the my kind of warranties because they never pay for any claim
or they do not pay for the full claim of the part it covers. I am glad I had additional monies on
me unless I would not have been able to drive my vehicle home for on payment to service my

vehicle.
15. Have you had any more problems with the vehicle since your purchase? Yes. The front left tire
hub needs repair and the rear tire hub as well.

16. If so, have you attempted to use the vehicle warranty? No. Because it is too high and 1 don t
know what I will be asked to pay after I pay the deductible.

2

I

Case 4:17-cv-12970-MFL-SDD ECF No. 54-1 filed 04/11/18

PagelD.465 Page 3 of 3

Affidavit of Marcus Mayes

17, Why did you purchase the warranty? Because of the warranty. I felt like if my car broke down
the Inst thing I had to worry about was getting the car fix and paying the note. The dealer and
Credit Acceptance and the dealer. That Is all I was told was If anything happens to the car I could
take It somewhere and they would repair It after the deductible was paid.
18. Wns It offered (warranty) or did you feel pressured? It was both. After I was told of the
warranty the sales person continued to tell me about It. I wasn't allowed to think about it and
then get It. It was like I had to get it right now

19. Is there anything you want to add to this statement? Yes. I was told Credit Acceptance stated it
was mandatory I get gap insurance on the car through the loan. I could have purchased gap
Insurance through another company or my insurance. Because of the warranty and the
Insurance the price of the vehicle of 7,900, the total price is over $25,000. My note is over $500
a month. Because the purchase of the car being already damaged and I still have to pay for the
repairs even though I have coverage for repairs I still have to pay. To get the repairs done will
cause a financial hardship on me.

7
SWORN BEFORE ME ON THIS

Date:

^^Dav oiJh&A

2018

Notary
My commission expires:

My Com. Exp. July26,2020
r
3

i

■i/YL

Scanned by CamScanner

t

Case 4:17-cv-12970-MFL-SDD ECF No. 92 filed 07/09/18

PageiD.734

Page lot 3

EASTERN DISTRICT OF MICHIGAN SOUTHERN
DIVISION

SAMANTHA RAJAPAKSE

Case No. 4:l7-cv-12970

Plaintiff

Matthew F. Leitman
United States District Judg<

V.
Stephanie Dawkins Davis
United States Magistrate Judge
CREDIT ACCEPTANCE CORPORATION
ETAL
Defendant (s)

AFFIDAVIT OF SHANIECE HARRIS
I, Shantece Harris also known as Shaniece Alexandria Harris

a residence of Memphis, Tennessee,
Shelby County do hereby present this affidavt, as nty sworn testimony to the conn and all parties related
to Samantha Rajapakse with her relationship with Credit Acceptance. I have fid, knowledge of the
warranty, payment and the conversation with Credit Acceptance. 1 am cnrently with my Husband. Jordy
Hams who ts stahoned at For, Leavenworth Amty Base in Leavenworth County Leavenworth, Kansas.
Do you know the Plaintiff? Yes. Samantha Rajapakse is my Mother. 1 have been assisting my Mother
w,th her case against Credit Acceptance. I have full knowledge of her dispute w.th the wareanty that
was
on the vehicle. Tins ,s to also show the character of Samantha Rajapakse as well. 1 refer to Samantha
Rajapakse as “ mom” or “Mother” in my affidavit of statement. I feel that
my mother is being portrayed
in the court as someone that does not pay her bills.

I

Case 4:17-cv-12970-MFL-SDD ECF No. 92 filed 07/09/18

PagelD.735

Page 2 of 3

What do you know about this case? My Mother, Samantha Rajapakse has been fighting the
dispute of the warranty for about three or four months after she got her truck. She told me she tried to use
it because the check engine light was on and a repair person told her that if they fixed it, it would be out
of pocket. She repaired her truck herself or she paid someone to repair her vehicle,
This is when she was
living in Memphis, Tennessee.
When she moved to Chattanooga she would ask me to mail letters related to the dispute while she
was at work and while she moved. I know 1 mailed letters on her behalf to Credit Acceptance that she
wrote regarding the warranty.

In April, 2017 my Mother moved with us in Fort Leavenworth, Kansas because 1 have Lupus and
was expecting a child. At the time of ray Mother moving her she had told me her last payment was
January, 2017 and she was waiting on her title because she had sent letter to dispute the warranty. The
reason why I am stating this is because of her moving with us we wanted to make sure her payments
were
going to be made. My Mother’s mail was also forward to our address on the base and she never received
any letters from Credit Acceptance.

August, 2017 while me and my Mother were driving when she received a call from Credit
Acceptance Attorney. I know this because during the conversation she kept calling him counsel and
talking about her account with Credit Acceptance. As the attorney kept taking she was on her speaker
phone cause she was driving. During the phone conversation the attorney told her if she dismissed the
case in court they (Credit Acceptance) would remove all the negative remarks off her credit and erase (he
account. My Mother asked attorney to put the offer in writing and he said no he was going to ask Credit
Acceptance to agree. She recorded the message but I don’t know where the recording is located. He
unaware she still had her truck. When we returned on the base the same day 1 went to the mail box and it
was a letter addressed to my Mother and when she opened it one of the credit reports had already deleted
Credit Acceptance Corporation off her credit. She then was approved fora credit card and her credit
rating had increased.
Why are you coming out with this affidavit now? Because of her health in fighting for the truth to
come out. 1 called my mom and asked her could 1 do an affidavit since she was on social media posting
about Credit Acceptance. My Mother has always paid cash for her vehicles. It had been over 10 years
before she got a car note. She did that so me and my brother Jeffery could have a chance at college.

I

i

.

Case 4:17-cv-12970-MFL-SDD ECF No. 92 filed 07/09/18

PagelD.736

Page 3 of 3

During her divorce her Volvo S70 stop working and her 1992 Toyota Celica as well. My mom wait
without a vehicle for over 14 months until my brother was about to graduate from high school and then
she financed the truck. 1 want to let the court know how responsible my Mother is
My Mother is a t\pe two diabetic and has been since 2018. She has been on pills since she was
diagnosed and just recently was been placed on insulin. She was also a pending listed depended on my
husband’s active military status because of my condition and her possible travel to the base due to my
condition. Me and my brother try to assist her in paying her bills since she do not have her vehicle. She
relocated because it was taking too long for the process and she was running out of her medication and
could not use the base clinic. The process is almost finish for her to become a permanent dependent.

1 can say this, my Mother paid her truck note. That was the first tiling she always did. Her credit
was affected when she was going through a bitter divorce. Me and my brother use to become upset with
her because she would pay her truck note before she put food in the house. Ha credit is important to her.
My Mother kept her payment book in the truck so she would not lose it. Alter she made the payment she
stapled it to the book. 1 know this because she does all her bills like that in case there is a payment issue.
My mother is responsible because she was so use to paying cash it was hard for her to get a car and with
the divorce that is why she wait through Credit Acceptance.

If you were to come to court of a hearing, would you swear or affirm this statement you are making
on this affidavit is true to the best of your knowledge? Yes, 1 do.

1 4k

Sworn before me on

day of jC

2018

/

a

c

t tV)

Date:

liia

Shaniece Alexandria Harris
Notary
My commission expires: [q OSC-

y

f

i®. *uT!r'“ |j
%"4

I
i ••

EASTERN DISTRICT OF MICHIGAN SOUTHERN
DIVISION

SAMANTHA RAJAPAKSE
Plaintiff

Case No. 4:17-c.v-12970
Matthew F. Lehman
United Slates District Judge

V.

Stephanie Dawkins Davis
United States Magistrate Judge

CREDIT ACCEPTANCE CORPORATION

AFFIDAVIT OF KAMECTA SMITH SHERROD

[. Kamecia Smith Sherrod of Memphis. Tennessee. Shelby County do hereby present this
affidavit as my sworn testimony to the court and all parties related to Credit Acceptance Corporation. I

obtained a loan with Credit Acceptance Corporation. I make tiiis affidavit of my own free will and not
under any duress or payment. I am over 18 years old and I have full knowledge the warranty and Credit
Acceptance. These are my own words

Do you know the Plaintiff? No. I met her on social media (FaceBook) of a post she asked about anyone
having a loan with Credit Acceptance that had an issue with the warranty or pavments of their account. I
am having issue with both the warranty and payments on my account.

1.

Do you or have yon every had an account with Credit Acceptance within the last 5
years? Yes. I purchased a Pontiac Grand Prix

2.

Did you ask for Hie warranty or it was placed on her vehicle without knowledge? [
asked for the warranty for mv vehicle.

3.

Did you receive any documentation related to the warranty attached with the vehicle?
No. I was told the what the warranty was and what it could cover.

4.

Did you have any issues with the vehicle after purchasing the warranty with the vehicle?
Yes. 1 he cai was over heating. It was later found out il was the Cadillac converter caused by
the iiead gaskets. The engine later went out of the car.

5.

From the time you purchased the vehicle to the time it was unrepairable, did yon
contact anyone? Yes. I contacted Credit Acceptance because the dealer told me there was
nothing they could do. At that lime a year had past. I was told by Credit Acceptance the
warranty was one day expired and even if the warranty wasn't expired they did not do
engines.

6.

So to clear this up this is what you are saving. You purchased the vehicle that already
had an existing problem with the vehicle. You are stating the vehicle had a warranty
with it and after exhausting all means of getting the vehicle repaired the motor stop
running? Yes.

7.

Did this cause any hardship? Y'es. Because they ( Credit Acceptance) rolcl me that 1 had to
put rite motor in mvsclf at my own cost. I could not do so and they repo the car.

S.

Are you dealing with the hardship now? Y'es. because they came and took the car and has
on my credit owning over $10,000.00 dollar for the vehicle. It*the warrant}- was any good I
would have been paying the car note.

9.

So you arc slating the warranty which was attached to you loan were fraudulent? Yes it was.

10. It ! have to go to court on this matter or anywhere. I will testify this affidavit as mv answer of
truth.

Or*

Sworn before me on this /

/

day oi; lUiU 20IS.

C:

s

date:

$

Kamecia Smith Sherrod
'.■•••

w

•>

]mo

Notarv

Sou d 7d ,

Cmjfy didoy
l/(C! Q(l'iWi,77^J\LQou/S

J

i

idlpdOd]

EASTERN DISTRICT OF MICHIGAN SOUTHERN
DIVISION

Case No. 4:17-cv-12970

SAMANTHA RAJAPAKSE

Matthew F. Leitman

Plaintiff

United States District Judge

Stephanie Dawkins Davis

V.

United States Magistrate Judge

CREDIT ACCEPTANCE CORPORATION
ETAL
Defendant (s)

AFFIDAVIT OF ASHLEY POOLE

1, Ashley Poole of Memphis, Tennessee, Shelby County do hereby present this affidavit as my
sworn testimony to the court and all parties related to Credit Acceptance Corporation, I obtained a loan
with Credit Acceptance Corporation. I make this affidavit of my own free will and not under any duress
or payment. I am over 18 years old and I have full knowledge the warranty and Credit Acceptance.
These are my own words
Do you know Plaintiff? No. I met her on social media (FaceBook) of a post she asked about
anyone having a loan with Credit Acceptance that had an issue with the warranty or payments of their
account. I am having issue with both the warranty and payments on my account.
1. When did you purchase your vehicle? It has been almost four (4) years ago. I got a Toyota
Camry.

2. Did it have a warranty on it? Yes. And gap insurance.

3. Did you ask for the warranty or insurance? No. I did not. I was told it was added into the
price of the car.

4. After purchase were there any problems with the vehicle? Yes. It had a bad oil leak.

5. Did you attempHo repair the vehicle? Yes, I took it to the shop and they wanted to charge
me more and then I called Credit Acceptance to make a claim but it was denied. They kept
giving me the run a round about the warranty.

6. Was the vehicle repaired? No. Because the oil leak was so bad the motor went out of the
vehicle.

7. You said you had a payment/balance issue as well? Yes,
8. Can you explain? Last year I owed 2250 on the vehicle. I have been paying on it and the
balance was still the same. After the vehicle broke down I called Credit Acceptance in trying
to settle the account with $1,400.00. Credit Acceptance denied the settlement and told me
they would accept only $2,000.00. The parts alone was expensive.
9. What do you want as an outcome? I have been seeking my title and the true balance of the
vehicle so I can pay it off. It is going on three (3) years and the balance is still the same.
10. Do you think or feel the amount is correct? NO.
11.1 make this statement true if 1 am to testify in court.

Sworn before me on this / /~^dav of

2018.

/

Ashley Poole

;

My commission expires:

)

>oW <31^ 90^

\

i

Case 4:17-cv-12970-MFL-SDD ECF No. 89-1 filed 07/02/18

PagelD.714

Page 1 of 3

EASTERN DISTRICT OF MICHIGAN SOUTHERN
DIVISION

JSAMANTHA RAJAPAKSE

Case No. 4:17-cv-12970
Matthew F. Leitman

Plaintiff

United States District Judge

Stephanie Dawkins Davis

V.

United (States Magistrate Judge
CREDIT ACCEPTANCE CORPORATION
ETAL
Defendant (s)

)

AFFIDAVIT OF AMANDA STINSON

STATE OF TENNESSEE
COUNTY OF SHELBY

I, Amanda Stinson, a borrower who is currently financing a vehicle through Credit Acceptance
Corporation, do hereby make this statement related to the behavior practice of this company. I have full
knowledge based on personal experience. I am over eighteen (18) years old and I am making full
knowledge of the sell and claims related to the warranty. I am submitted this for this district court and for
any court in the United States including any appeals which may be resulted in my testimony.

1.

How did you find out about this case? I am a Facebook Friend with Samantha Rajapakse and
on June 30,2018 she pose on her page was there anyone who has Credit Acceptance Corporation
in getting a vehicle. She also had their logo posted with her comment. A few people commented
1

i

>
i

Case 4:17-cv-12970-MFL-SDD ECF No. 89-1 filed 07/02/18 PagelD.715 Page 2 of 3

and told her of their bad experience with Credit Acceptance Corporation. She posted her phone
number and I contact her.
2. How do you know Credit Acceptance Corporation? August 1,2015,1 financed a 2007
Nissan Maxima through Credit Acceptance from Mt. Moriah Auto Sales in Memphis, Tennessee
3. Do you have a warranty attached to the financing of your vehicle? Yes, I was told that in
order for me to get the vehicle I had to get the vehicle. I did not want the warranty because it
made my note increase from $200.00 to $341.00.
4. Where the warranty ever explained to you? Yes, My dealer told me it was a bumper to
bumper warranty and that it covered everything on the vehicle.
5. Did you ever need to use the warranty? Yes. Shortly after financing the vehicle I notice the
power steering fluid was leaking. I was putting fluid in the vehicle every other day. The price was
3.98 a quart as it was getting worse. Causing 50.00 to 60.00 a month, causing deep spills in my
driveway. This was part of the transmission that I was told was covered. The problem went on
«

for over one (1) year.
6. Was the repairs paid? If so who? I paid the repairs out of my own pocket. The part was
$130.00 and for a repairman to put it on was $100.00
7. How did the repairs affect you? Because of what I was told prior to financing my vehicle the
cost of getting fluid for the vehicle every other day and the cost of getting it repairs caused me to
be in financial hardship. Because of my experience with the warranty, I had to file bankruptcy
protection (Dkt. 17-29216-k) in Western Tennessee Bankruptcy Court. Prior to the proceeding
my Bankruptcy Attorney attempted to settled the debt to decrease it with a lower amount, Credit
Acceptance Corporation refused. I am paying the same amount in bankruptcy with the attached
warranty on the vehicle.
8. What are you seeking from filing this affidavit? I am submitting this affidavit to show how
peopled are not only being lied to about this warranty, but after it is purchased they can not use it
or what they are told is wrong. My attorney told me that unless I stay in bankruptcy I have less
than one (1) percent of paying this vehicle off. My. payments are due on the 10th of every month
and I was going to pay them on the 11th of my pay period. Credit Acceptance cut my vehicle off
2

i

Case 4:17-cv-12970-MFL-SDD ECF No. 89-1 filed 07/02/18

PagelD.716

Page 3 of 3

on the 11th for non-payment. I have paid this vehicle off but because of the warranty attached to
the installment warranty and the interest, I am still paying on the warranty.
9. In the event I am call to court to testify, this affidavit will be my testimony.

Sworn before me on this

day ol J £(.

2018,1 do hereby swear or affirm this is

true to the best of my ability. I was not cornea or und&r duress to make this statement.

Amanda Stinson

••' °•
:

. My commission expires:

STATE
’•
OF
• : TENNESSEE :
NOTARY
o
*'o:\ PUBLIC

02/

\

3

Notary

AFFIDAVIT OF INDIGENCY
STATE OF TENNESSEE
COUNTY OF HAMILTON
I, Samantha Delane Rajapakse do hereby submit this affidavit to the United States
Supreme Court in seeking to enter the court without paying filing fees due to my inability to
pay. I have been trying for four(4) years disputing my credit as part of the breach against
Equifax Information as a claimant of the breach that occurred in September 2017 (Claim
no. P6RD4-P5F3U). During this time, I was denied security clearance as a residence of the
military base in Fort Leavenworth, KS to live with my Son-in-law and Daughter after finding
out I had two credit reporting account with Equifax in my maiden name and married name.
Due to me being unable to get military residence as a type 2 diabetic I was denied medical
treatment as my son-in law dependant. Because my credit was at 495,1 was unable to get a
decent residence and had to live in substandard housing. After Credit Acceptance seized by
vehicle in 2018, I could not qualify for another auto loan because this creditor continue to
report inaccurate information until December 2021 which I have a pending case against
Equifax, Rajapakse v. Equifax no. l:2020-cv-00080). In 2018 after waiting for a year to
get my personal belongins, Credit Acceptance through Counsel King returned part of it only
some papers. As of today I am unemployed and receiving foodstamps and I live at someone’s
home who I am totally dependant on. I can’t afford to pay rent ( my half). My daughter and
son is assisting me in paying my medical expenses. I am waiting for my unemployment since
I filed in May, 2021 and it is pending. I am at limbo because of all the litigation I have had
and contine to go through in having my credit corrected. Over the last two years I have had
to quit a job due to transportation cost. Taking a lyft back and forth was $50.00 a day that
equal $250.00 a week, $1,000.00 a month with wages of 14.00 or less making $560.00 before
taxes on some assigments working as a Temporary or seasonal employee. I have provided to
the court and Equifax all documentation from the creditor and the credit reporting agency
itself to support by claim but I see that having a well-pleaded motions means nothing when
you are being pro se. Because of the nature of my credit, it has been almost impossible to hold
down a job, get better housing, and qualify for an auto loan. It has become impossible for me

i

to save or move forward until I clear these issues up. This is why the last few years I have

been unable to pay filing fees is due to the Equifax breach and Credit Acceptance errors due
to Equifax allowing Credit Acceptance to report inaccurate information and the district court
ruling straying away from the opinions of the United States Supreme Court and the
Appellate Courts related to this issue.

I , Samantha Rajapakse do hereby affirm on this

^

day of r)l>i\| 2021 the

information I am providing is true to the base of my knowledge and I have not committed
perjury or provided any false information. Nor has this statement has been made under any
duress. I am over the age of eighteen (18) years of age and have full knowledge of this
incident. I also affirm a copy of this affidavit and financial information has been provide to
the opposing counsel under Supreme Court rule

Sworn before me is Samantha Delane Rajapakse under oath has affirmed the information
she is providing is true to the best of her knowledge.

U
Samantha Delane Raj
\

Notary
My commission expires:

lb2

I Tennessee

5 \

i

Notary

